<html>
<title> - THE RAIL AND MASS TRANSIT SECURITY: INDUSTRY AND LABOR PERSPECTIVES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
  THE RAIL AND MASS TRANSIT SECURITY: INDUSTRY AND LABOR PERSPECTIVES

=======================================================================



                                HEARING

                               before the

                     SUBCOMMITTEE ON TRANSPORTATION
                 SECURITY AND INFRASTRUCTURE PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 13, 2007

                               __________

                            Serial No. 110-5

                               __________

       Printed for the use of the Committee on Homeland Security


[GRAPHIC] [TIFF OMITTED] 



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
35-264                     WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 SHEILA JACKSON LEE, Texas, Chairwoman

EDWARD J. MARKEY, Massachusetts      DANIEL E. LUNGREN, California
PETER A. DeFAZIO, Oregon             GINNY BROWN-WAITE, Florida
ELEANOR HOLMES NORTON, District of   MARSHA BLACKBURN, Tennessee
Columbia                             GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York           PETER T. KING, New York (Ex 
ED PERLMUTTER, Colorado              Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                 D. Michael Stroud, Director & Counsel

                   Natalie Nixon, Deputy Chief Clerk

                 Coley O'Brien, Minority Senior Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Ranking Member, Subcommittee 
  on Transportation Security and Infrastructure Protection.......     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     5
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     3
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York..........................................    35
The Honorable Eleanor Holmes Norton, a Delegate in Congress From 
  the District of Columbia.......................................    32

                               Witnesses
                                Panel I

Mr. Lewis G. Schiliro, Director of Interagency Preparedness, 
  Metropolitan Transportation Authority, State of New York:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
Mr. Fred Weiderhold, Inspector General, Amtrak:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
Ms. Nancy Wilson, Vice President-Security Association of American 
  Railroads:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13

                                Panel II

Mr. Gary Maslanka, International Vice President, Director of 
  Railroad Division, Transports Workers Union:
  Oral statement.................................................    39
  Prepared Statement.............................................    41
Mr. John Murphy, Director, Teamster Rail Conference, 
  International Brotherhood of Teamsters:
  Oral statement.................................................    43
  Prepared Statement.............................................    44


  THE RAIL AND MASS TRANSIT SECURITY: INDUSTRY AND LABOR PERSPECTIVES

                              ----------                              


                       Tuesday, February 13, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Transportation Security
                             and Infrastructure Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:04 p.m., in 
Room 311, Cannon House Office Building, Hon. Sheila Jackson Lee 
[chairman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, DeFazio, Norton, 
Clarke, Thompson, Lungren, Blackburn, and King.
    Ms. Jackson Lee. [Presiding.] Good afternoon. The 
subcommittee will come to order.
    The subcommittee is meeting today to receive testimony on 
the topic of rail and mass transit security, industry and labor 
perspectives.
    Welcome to the Subcommittee on Transportation Security and 
Infrastructure Protection. I am delighted to have one of our 
very able members join us at the very start. We know that 
members are engaged in the debate on Iraq on the floor of the 
House.
    We thank you, Congresswoman Eleanor Holmes Norton, for your 
presence, and also for the members of your constituency.
    By proclamation of Congresswoman Norton, the House of 
Representatives here is open. So if there is any information 
about the government being closed, she has announced that we 
are open.
    [Laughter.]
    And we thank you for your presence here today.
    Let me first of all indicate that Chairman Thompson had as 
one of his visions, which I join him in working with him 
intently and intensely, is to have, after our work is done, the 
best homeland security on our transportation systems that we 
can possibly have. That is, a comprehensive approach that 
involves local agencies, the federal government, and as well 
the personnel that are engaged. Of course, our committee 
addresses transportation from rail to aviation, to otherwise.
    Your presence here today will help us be good fact-finders 
so that we can be good legislators, and frankly, make good on 
the promise after 9/11 that we made to the American people that 
we would fix our intelligence system, that we would work to 
develop a Department of Homeland Security, and for those of you 
in local and state government, that we would actually 
communicate with you so that you would know the information 
that we have, and that you would be able to make, along with 
us, the best judgment.
    Certainly, I know that, like all Americans, you have become 
increasingly alarmed at the lack of security for rail and 
public transportation systems around the country. Each weekday, 
11.3 million passengers in 35 metropolitan areas and 22 states 
use commuter heavy or light rail. It is time for the department 
to take concrete steps to protect these men and women. History 
has shown that terrorists view rail and public transportation 
systems as potential targets, but I believe, even as you work 
very hard, we recognize that terrorists are very creative. So 
we have to be vigilant and diligent on every aspect of 
America's security and transportation system together.
    Almost 3 years ago, terrorist bombs exploded on Madrid's 
rail system, killing and maiming hundreds of innocent victims. 
This coming July marks the second anniversary of the terrorist 
bombings throughout London's Underground Tube system, and 
abroad London transit buses. Last summer, a number of bombs 
tore through Mumbai's rail system in the worst attack we have 
seen on a public transportation system. Over the years, we have 
seen in the Israeli-Palestinian conflict that transportation 
systems were used as a source of terrorism and suicide 
bombings.
    Our enemies around the world have proven that they can and 
will kill hundreds and injure hundreds more by means of 
terrorism, but they will also injure and maim and kill 
thousands upon thousands, and maybe millions, of innocent 
persons. That is our challenge. According to a RAND Corporation 
database of worldwide terrorist incidents between 1995 and 
June, 2005, there were over 250 terrorist attacks worldwide 
against rail targets, resulting in almost 900 deaths and over 
6,000 injuries. These numbers do not include those killed and 
injured in the London and Mumbai attacks in 2005 and 2006.
    Despite all of these attacks, rail and public 
transportation security remains secondary to aviation. Most 
importantly, our frontline workers have been left out in the 
cold when it comes to security training. Labor organizations 
have repeatedly called for additional training for rail and 
mass transit employees. The absence of mandated security 
training stands in stark contract to the maritime sector of the 
United States. The Maritime Transportation Security Act 
requires that every vessel and facility plan describe the 
training, periodic unannounced drills, and security actions of 
persons on the vessel or at the facility to be carried out 
under the plan, to deter to the maximum extent practical a 
transportation security incident or a substantial threat of 
such a security incident.
    The London Underground has recognized the importance of 
training exercises. Every staff member has had training in 
evacuation and safety procedures. In addition, the London 
Underground system holds regular emergency exercises. There is 
no reason that we cannot have this level of training for our 
rail and mass transit workers. It defies belief that men and 
women are working in high-target areas and have not been 
provided the tools and training to safeguard lives and minimize 
damage to our infrastructure and to our economy.
    We have noticed that the federal government does not seem 
to take rail and mass transit security seriously. That means 
that for now we must rely on industry and local government to 
make sure that adequate training is given to their frontline 
workers. To the witnesses, let me be very clear. We want a 
frank discussion today. This is an opportunity to be forthright 
with us. We know that all of us equally will have to accept the 
responsibility if we have some tragic incident occur. So teach 
us. We are willing to learn.
    We are engaged in legislation writing as we speak. So your 
input will be vital to putting forward a very effective 
legislative initiative that will not blame, but that will 
incorporate your ideas and work toward real safety. For 
example, I realize that jurisdictions like New York have a 
heavy burden of local support of their transportation systems 
in terms of security. For large systems like Washington, D.C. 
and others as your very able members who are on this committee 
have indicated, there must be a greater local-federal 
partnership on security.
    I believe that it is important for us to have a partnership 
with all of the employees that have to be on the frontline of 
transportation systems, and therefore the first ones to be the 
first responders if a tragic incident occurs on light, heavy or 
commute rail. However, I am concerned that the industry has not 
had the sense of urgency that I think is important when it 
comes to adequately staffing and training employees. I hope 
that this is not the case, and that we will not suffer another 
disaster because of it.
    So we are here to listen to you and the system, fix the 
kinks or the great gaps, or the great schisms in our system. My 
colleagues and I will be introducing legislation, as I 
indicated, in this Congress, mandating that the administration 
take concrete steps to improve the nation's rail and public 
transportation system. The American people deserve no less, and 
I intend to push and work with this committee to pass the bill.
    Let's do it in a way that incorporates all of the valuable 
testimony and concerns and insight that you have. But most of 
all, let's do it in keeping with our responsibility to secure 
America and secure the homeland.
    The chair now recognizes the ranking member of the full 
committee, Mr. King of New York, for his opening statement.
    Mr. King.  I thank the chairwoman for yielding. I want to 
commend her and the chairman of the full committee, Mr. 
Thompson, for the effort they are putting into this whole issue 
of rail and transit security, which obviously is an issue which 
must be confronted and which is essential to the security of 
our country. Just to look at Madrid and at London is an 
occasion of how dangerous the situation can be, and how deadly 
it can be.
    Also, coming from New York, where we do have, as the 
chairwoman mentioned, in many ways unique problems, with more 
than 400 train stations, over, 1,000 exits and entrances, and 
millions of passengers every day. In addition to that, we have 
the commuter lines coming in from Nassau County, Suffolk 
County, Westchester, Rockland, New Jersey. So it is obviously a 
master problem, and even our Penn Station being rebuilt, there 
have been some security issues there in the tunnels leading 
into Manhattan.
    So with all of that, I certainly look forward to working 
with the chairman and the chairwoman as we go forward. I also 
want to take this opportunity, though, to commend the MTA and 
the NYPD for the efforts that they have taken in moving forward 
and being aggressive and being proactive. They I believe really 
are setting a standard for the rest of the nation. I hope that 
whatever we do builds on that and incorporates into a federal 
plan what has been achieved, and again, what else has to be 
achieved in New York, because they would be the first to say 
that we certainly have not achieved full security. In fact, I 
think the uniqueness of rail and transit security does separate 
it from aviation security. It is a different species 
altogether.
    I also want to, and I see that the ranking member of the 
subcommittee has arrived, commend him for the efforts that he 
put in last year when he was chairman of the subcommittee on 
this issue. He certainly went forward with the issue and I 
believe achieved a great deal. And also the department itself, 
all of us know that more can be done. The fact is, with VIPR 
teams and other efforts, they have made significant progress.
    I would hope, too, as we go forward with legislation, that 
whatever we do does not diminish the power of the Department of 
Homeland Security and the TSA to have the final word. We should 
not be ceding any jurisdiction or authority to any other 
federal agency, certainly when it comes to the awarding of 
grants. I think, in fact I know, that Homeland Security and TSA 
are best equipped to make grant awards based upon risk and 
threat analysis, and also as part of a national fabric. So I 
would hope as we go forward that we are not ceding any of that 
grant authority to any other federal agency or department.
    So again, I look forward to the work of this subcommittee 
and the full committee. I know we have a very aggressive and 
energetic schedule over the next weeks and months. I look 
forward to working with the chairwoman of the subcommittee, and 
also the ranking member of the subcommittee, who has already 
established such a fine record in this field.
    With that, I yield back the balance of my time.
    Ms. Jackson Lee. Thank you, Mr. King. Let me thank you for 
your leadership, along with the leadership of the chairman of 
the full committee, Mr. Thompson.
    Let me, before I yield to the distinguished gentleman from 
California, the ranking member of this subcommittee, 
acknowledge the presence of Congresswoman Clarke of New York, 
Mr. DeFazio of Oregon, and Ms. Blackburn of Tennessee. Thank 
you.
    It is my pleasure now to recognize the ranking member of 
the subcommittee, the gentleman from California, for an opening 
statement.
    Mr. Lungren. Thank you very much, Madam Chairperson. I 
congratulate you for these sets of hearings and for moving so 
quickly on this issue. This is one on which there is a 
bipartisan recognition of, that is that rail and mass transit 
security is, by its very nature, unique. It is different, 
certainly, from those that we have dealt with in the area of 
aviation and some of the other areas. And yet it is one that 
needs our attention.
    As was suggested by the gentleman from New York, Mr. King, 
we had started on this in the last 2 years, but we had just 
started, and much remains to be done. I am particularly pleased 
that you have representatives from industry and labor here 
today because that gives us a perspective that we need to 
continue to have. We in government don't have all the answers. 
We have a lot of the questions, but we would make a mistake if 
we did not seek the expertise of those who are actually on the 
frontlines. If there is security to be had for rail and mass 
transit, obviously the workers are the ones that are our first 
line of defense, and they are the ones that would be, in 
essence, the first responders to a problem.
    So I think there is recognition among all of us, including 
the administration, that much more needs to be done in the area 
of training, and the grant programs, as we have all agreed, 
must be done on a risk-based analysis setting. And so I hope 
that we will continue with that.
    Again, I thank you for beginning these hearings. I hope 
that we can work on a bipartisan basis to come up with some 
rail and mass transit security legislation.
    Ms. Jackson Lee. Do you yield back? The gentleman yields 
back.
    The chair now recognizes the chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for 
his opening statement. We thank him for his leadership on this 
issue.
    Mr. Thompson. Thank you very much, Madam Chairman. I look 
forward to the testimony of our witnesses this afternoon. I 
think we all agree that rail security from a federal 
perspective, is nonexistent because we have deferred to state 
and locals to handle security. The federal government has 
provided little direction from a homeland security perspective.
    I look forward to the testimony. I look forward to the 
Department of Homeland Security, with Congress's direction, 
stepping forward and being more aggressive in this area, both 
for passenger rail, as well as our freight van systems. It is 
clear that investment is important. We spend about 2 cents per 
passenger on rail security in this country. We spend around $9 
per passenger on airline security, which is a significant 
difference. Nonetheless, we have to step forward.
    I am also privileged to see that organized labor is 
committed to making sure that they are full participants in 
this process. They have indicated that their members want more 
training, so they can help on the frontlines with the war on 
terrorism. I look forward to hearing what they have to report.
    Madam Chair, I think we all recognize the vulnerability. 
The question is, when we will move forward and make sure that 
we address it? The public will expect nothing less. So I look 
forward to the testimony and I look forward to crafting 
legislation in pursuit of many of the items we hear in the 
testimony.
    I yield back.
    Ms. Jackson Lee. I thank the chairman for his challenge. We 
are up for the task.
    I would like to welcome now the first panel of witnesses.
    Our first witness is Mr. Fred Weiderhold, the inspector 
general of Amtrak, who brings more than 20 years of railroad 
management experience.
    Our second witness is Ms. Nancy Wilson, vice president for 
security for the Association of American Railroads, who has 
over 25 years of experience in the railroad industry.
    Third is Lewis Schiliro, the director of interagency 
preparedness for the New York Metropolitan Transportation 
Authority. Mr. Schiliro is a 25-year veteran of the Federal 
Bureau of Investigations, and currently works with all of the 
MTA agencies to coordinate preparedness and prevention 
policies.
    Without objection, the witnesses' full statement will be 
inserted into the record.
    Before I allow you to proceed, might I also indicate that 
other members of the subcommittee are reminded that under the 
committee rules, opening statements may be submitted for the 
record.
    I would also ask each witness to summarize his or her 
statement for 5 minutes, beginning with Mr. Weiderhold from 
Amtrak.
    Welcome, and thank you for your testimony.

    STATEMENT OF FRED WEIDERHOLD, INSPECTOR GENERAL, AMTRAK

    Mr. Weiderhold. Thank you, Madam Chairperson and members of 
the subcommittee. I appreciate the opportunity to appear here 
today.
    I am the inspector general for Amtrak, and I am responsible 
for overseeing all of Amtrak's operations and programs, 
including those involving safety and rail security.
    My message to you today is fairly straightforward. Our 
nation's passenger railroads are not as prepared for a 
terrorist event as we can or we should be. We have made and we 
are continuing to make inroads with multiple federal, state and 
local partners, towards improving rail security, but we are not 
there yet.
    We should not underestimate those who would do us harm. 
Recent history in Chechnya, Madrid, London and Mumbai clearly 
demonstrates that passenger rail and transit are in the 
terrorists' target folders. It may not be a question of ``if,'' 
but rather ``when.'' We cannot wait for the right technology or 
silver bullet to evolve. Amtrak's board and senior management 
understand the need to move quickly. Management has told me it 
will provide more employee training, more emergency response 
training, more canines and more security on its trains and in 
its stations within the year.
    That said, I am sure the committee realizes that Amtrak 
operates in a very complex environment. Amtrak operates in 44 
states and serves over 500 stations daily. Amtrak carries over 
25 million passengers each year and the company operates much 
of the northeast rail corridor, with over 1,000 trains and 
600,000 riders using New York's Penn Station each day.
    Amtrak operates trains through underwater and underground 
tunnels, over bridges and under electrified track. The system 
is designed with an open architecture, with multiple access 
points, and with little redundancy. The challenges to fence, 
gate and lockdown rail assets are considerable.
    Passenger rail and Amtrak need your help. In my written 
testimony, I make four recommendations that closely mirror what 
this committee has proposed in its rail security agenda. First, 
there needs to be a convergence in security research and 
development through some kind of technology center. I think Ms. 
Wilson from the AAR will comment on some of the things that the 
rail industry is doing in that regard.
    Second, there should be criteria, if not requirements, for 
building in security into all capital projects. We readily 
accept the need to engineer in factors of safety, but there is 
no equivalent for security.
    Third, we need effective security standards. Amtrak is 
operating under a set of security directives that were 
promulgated immediately after the Madrid attacks. These 
directives need to be revisited with the rail sector to ensure 
that the directives are applicable and add value.
    The committee may want to look to APTA, the American Public 
Transit Association, which is a designated standards-
development organization, what we call an SDO, for leadership 
in this assignment. Amtrak is planning to work with domestic 
and international engineering standards groups in this area, 
which we will of course be closely coordinating with DHS.
    Fourth, some level of passenger and baggage screening is 
inevitable, especially during times of high alert or when 
threat information is present. For many reasons, Amtrak cannot 
go down the path of the aviation security experience, but 
Amtrak should consider developing a policy that is defensible, 
is consistent with its business model, and is effective.
    Madam Chair, my office has conducted a number of reviews 
and Red Teams of Amtrak and our rail system that we believe 
will be of great interest to the committee. At an appropriate 
time, and most likely in a closed setting, we will be happy to 
brief you on this work and our other ongoing efforts.
    Again, we appreciate this opportunity to testify today. You 
have my assurance that my office will work very closely with 
you and the subcommittee in the coming months.
    Thank you.
    [The statement of Mr. Weiderhold follows:]

                Prepared Statement of Fred E. Weiderhold

    Thank you very much for the opportunity to appear before you today 
to discuss rail security issues affecting passenger rail services and 
Amtrak. I share your belief that rail security must be a national 
priority, and I am pleased to attend this hearing. I will tell you 
today that, although some progress is being made, we are not at all 
where we need to be on rail passenger security; we have not moved far 
enough, or fast enough. There should be a strong and united urgency to 
do the right things that will protect rail infrastructure and rail 
passengers, and we collectively have much work to do.
    As Amtrak's Inspector General, I am responsible for oversight of 
all of Amtrak's programs and operations. For the past several years, my 
Office has been heavily involved in evaluating and overseeing security 
operations within Amtrak. Immediately following the bombings in 
Chechnya, in December 2003, Amtrak's Board Chairman asked me to conduct 
an in-depth review of Amtrak's police and security operations. My 
Office worked with the Federal Railroad Administration (FRA) to obtain 
the services of the RAND Corporation to conduct this review. We were 
barely one month into our work when terrorists struck the Spanish rail 
system on March 11, 2004. In April 2004, we provided Amtrak with our 
observations and recommendations to improve security preparedness and 
to formalize and upgrade its police and security planning and 
operations. Amtrak has made some progress toward addressing some of the 
security shortfalls that were identified, but significant challenges 
remain.
    We are a statutory Office of Inspector General (OIG), and we have 
been very forward leaning in our security assessments. During the past 
two years, my Office has conducted several ``red team'' operations 
covering critical Amtrak assets; we have performed detailed CBRNE site 
assessments using the Lawrence Livermore National Laboratory Homeland 
Defense Operational Planning System (HOPS) group; we have been greatly 
assisted by the California National Guard and the Technical Support 
Working Group (TSWG) in contracting for highly detailed, virtual 
digital mapping of key stations (for use by asset stakeholders and 
first responders); and we have been similarly assisted by the National 
Guard Bureau and their Full Spectrum Infrastructure Vulnerability 
Assessment (FSIVA) teams. We have also independently contracted and 
sponsored counter-surveillance training for select Amtrak police, OIG 
staff, and other railroad security staff. In short, we on our own have 
sought help from almost any quarter, be it federal, state, and private 
entities, to find those ``right things'' to do.
    My Office and Amtrak also reached out to the international rail and 
security communities, sponsoring visits in February 2005 from the 
Guardia Civil, Spain's premier counter-terrorism unit and Spain's 
national railways operator, Renfe. In 2006, Amtrak officials were 
briefed by both British and Indian Railway officials regarding attacks 
in their countries, and as recently as last month, Amtrak senior 
managers were provided special briefings by the British Transport 
Police.
    The Amtrak OIG has also joined the President's Council for 
Integrity and Efficiency (PCIE) Homeland Security Roundtable, chaired 
by DHS Inspector General Richard Skinner, where we will be sharing red 
teaming and other security assessment approaches with the OIG 
community. And we will begin using the PCIE's Guide to Evaluating 
Agency Emergency Preparedness (November 2006) in our FY 2007 
evaluations of emergency planning at Amtrak.
    Given our extensive involvement in the rail security and the anti-
terrorism field, we make the following observations and recommendations 
to the Committee.

Significant Challenges Exist to Secure Rail Infrastructure and 
Passengers
    The challenges to secure Amtrak and make passenger railroading 
safer from potential terrorists' attacks are daunting. Amtrak operates 
in 44 states serving over 500 cities and towns across the nation. 
Amtrak operates 260 inter-city trains daily, and the company has 
agreements with 15 states to operate and maintain trains for many 
intra-state corridor services. As the owner and operator of much of the 
Northeast Rail Corridor, between Washington, DC and Boston, Amtrak 
controls and dispatches hundreds more trains for its rail and transit 
partners, including New Jersey Transit and the Long Island Rail Road. 
Amtrak directly owns many other critical fixed assets, such as New York 
Penn Station and Chicago Union Station, and there are other customers 
and tenants that make use of Amtrak's rights-of-way and other 
properties. Outside of the Northeast Rail Corridor, Amtrak operates 
over thousands of miles of the rail lines of its freight partners, 
where train operations are controlled and monitored by the host 
railroads.
    Our nation's rail system is one of the more open, and some say 
porous, passenger transportation systems in the world, both with 
respect to physical infrastructure and the very nature of the business 
itself. Amtrak's stations and trains are, by design, intended to allow 
persons to move freely unto and off its trains and through its station 
portals. There are multiple access points throughout our system and it 
is difficult to fence, gate, and lock down many parts of the system.
    Amtrak also operates trains through various tunnels, in New York 
City, Baltimore, Maryland, and Washington DC, which present special 
safety and security issues. However, even given these challenges, 
effective access control and monitoring at critical nodes and around 
high value assets must be designed and implemented.
    Any attempt to replicate a TSA-style aviation security architecture 
would most likely be extremely cost-prohibitive and ineffective. This 
does not mean that there are not significant lessons to be learned from 
TSA's aviation security model, and certainly some technologies and 
monitoring processes to be shared, but the final solution set for 
passenger rail security must be tailored to its unique environment.

Security Funding
    A stable funding mechanism for sustained security and emergency 
preparedness improvements at Amtrak, and within the passenger rail 
sector, is critically important. Most of you know that Amtrak's 
financial condition has been precarious in recent years, and Amtrak's 
funding of police and security operations has been limited to its own 
internal police forces (about 350 persons) and work on a major fire and 
life-safety tunnel project in New York City. Amtrak was requested, on 
several occasions, by both House and Senate Members to delineate what 
it needs to advance its security and emergency preparedness, but well 
intended bills have never been enacted.
    Amtrak was not even eligible for DHS grant monies until FY 2005, at 
which time Amtrak became eligible for approximately $6.0 million of 
$150 million that was provided for ``intercity passenger rail, freight 
rail, and transit security grants''. In subsequent appropriations, 
Amtrak received $7.1 million in FY 2006 and $8.2 million in FY 2007. 
Amtrak has used some of these grant funds to conduct vulnerability 
assessments, install a pilot chemical sensor system in four stations, 
fund a Washington tunnel security pilot project, and fund several other 
higher priority projects. However, there are many more security and 
emergency preparedness projects and initiatives for Amtrak that require 
your support.
    Due to these pressing security funding needs, Amtrak's Board of 
Directors and its senior management are committed to doing as much as 
possible within the limits of Amtrak's internal finances. Amtrak's new 
Chief Risk Officer, a former high ranking DHS manager, has requested 
that Amtrak increase its canine units and work immediately to get more 
police and counter-terrorism security forces riding its trains. Amtrak 
has had great difficulty in filling its police and security staffing 
levels because its pay and retirement benefits are well below those of 
competing jurisdictions, resulting in double-digit attrition and a high 
vacancy rate. The Chief Risk Officer is working closely with Amtrak's 
authorizing committees to find some relief for this most serious 
problem.

Employee & Passenger Security Awareness
    There is no substitute for having a well trained work force who can 
serve as the `eyes and ears' and first line of defense in noticing 
suspicious activities and things that are `out of place' on our 
railroad. Likewise, we need an alert and vigilant public, who know what 
to do and how to act before and during emergencies, and how to report 
to matters that warrant the carrier's attention.
    Amtrak has followed the Federal Transit Agency's and the American 
Public Transit Association's lead in developing employee awareness 
training. Using security awareness training developed by Rutgers 
University National Transit Institute (NTI) for mass transit employees, 
the transit training modules were modified slightly and customized to 
address Amtrak's facilities and rail environment. An introductory block 
of security training, including some class, Web-based, and CD-based 
training was delivered to all Amtrak employees in FY 2006. This 
training was intended to be equivalent to ``Security 101'' for railroad 
workers. An additional four-hour training block for up to 14,000 
employees is scheduled for FY 2007, with the first classes starting in 
January 2007. My Office reviewed this training, and we believe that it 
provides a good foundation of security awareness from which additional, 
more specialized training can be targeted for select employees.
    Amtrak has also begun a limited version of the popular ``see 
something, say something'' program that is used by a number of transit 
properties. Amtrak had implemented a station and on-board announcements 
program, alerting the public to have control of their personal baggage 
and carry-on articles, and to report suspicious behavior during high 
threat levels declared at the national level. This program is being 
expanded to be a part of Amtrak's normal business practice.
    The OIG believes Amtrak should consider other programs, to include 
programs for a LEO (law enforcement officer) rider's initiative and 
adaptation of the British Transport Polices HOT program, a more 
targeted employee training program to identify suspicious packages and 
reduce `false-positive' results.

Vulnerability Assessments & Security Planning
    We agree with the Committee's direction to mandate vulnerability 
assessments and security plans for the rail sector. We believe the 
Committee will find many carriers have already completed such 
assessments, but we suspect that many of these assessments are carrier-
specific and not necessarily linked to larger system or nodal 
vulnerabilities. An appropriate role for an Area Rail and Public 
Security Committee, or larger DHS entity, would be to link the 
assessments and plans into a larger rail transportation security 
matrix.
    Using DHS Office of Domestic Preparedness (now Grants & Training) 
funds, an external firm completed a vulnerability assessment for 
Amtrak's Northeast Corridor and Chicago Union Station in May 2006. 
Vulnerability assessments for the balance of most of Amtrak's system 
assets are scheduled to be delivered very shortly. We believe these 
assessments, while not exhaustive, provide a valuable mapping of the 
vulnerabilities of key Amtrak, and Amtrak-used, assets, but these are 
only starting points.
    Vulnerability assessments must be tied to threat and risk-based 
analyses, which, in turn, drive coherent and coordinated defense, 
deterrence, mitigation, and recovery strategies. These strategies must 
be tied to `best practices' to ensure that appropriate technologies, 
security and anti-terrorism processes, and human capital are invested 
wisely. Ultimately, the culmination of these efforts should result in 
an overall security plan that forms the bases for the ``Deter and 
Detect (prevention) and Respond and Recover'' activities.
    Thus far, we have observed that certain aspects of rail security 
planning for the passenger sector are not mature and well integrated. 
For example, Amtrak shares space with a number of transit partners 
(over 20) in multi-modal stations but, with the exception of some 
operations and train movement protocols, the security plans of the rail 
partners are not all formally linked. Also, within certain facilities, 
not all stakeholders and facility users are fully aware of security and 
emergency response procedures. The overall security and risk focus 
appears to be very traditional in that security planning has been 
limited to facility ownership (and potential liability) rather than 
directed more broadly.
    On the good news side, in many locations, there is strong 
information sharing between and among local operators and law 
enforcement on a daily basis, but these are oftentimes the result of 
personal relationships and networks. The strength of these 
relationships may change as personnel change, and we want to see 
stronger, more formal security networks between Amtrak and its rail and 
transit partners. Also promising, emergency response drills and 
exercises are being conducted with more regularity, and there is a 
growing body of ``lessons learned'' from the exercises, drills, and 
table-tops after-action reports that will assist investment decisions 
and changes in operational protocols.

Information, Intelligence Sharing, & Special Security Efforts
    Amtrak participates in the Surface Transportation Information 
Sharing and Analysis Center (ST-ISAC), which was established and is 
maintained by the Association of American Railroads (AAR). The ST-ISAC 
provides useful information to Amtrak, especially in the areas of 
cyber-security and after-action threat analyses. Amtrak also 
participates in the Railway Alert Network (RAN), another AAR-maintained 
information and intelligence sharing system.
    More recently, Amtrak placed personnel on the FBI's New York and 
Washington Field Office's Joint Terrorism Task Forces (JTTFs), and the 
National Joint Terrorism Task Force (NJTTF), with access to those 
units' intelligence centers. Additional Amtrak and OIG staff are 
assigned to various Department of Justice sponsored Anti-Terrorism 
Advisory Councils (ATACs) and working groups.
    Another important development affecting Amtrak's Northeast Corridor 
was the creation of Northeast Rail Police Coalition. Last year, NYPD 
Commissioner Ray Kelly called for a summit of police chiefs and other 
high ranking law enforcement officials from New York City to Washington 
DC. Commissioner Kelly proposed a coordinated approach by city, state, 
and local law enforcement to improve passenger rail security. The 
group, comprised of NYPD, Amtrak Police, Baltimore City Police, 
Delaware State Police and Delaware Homeland Security, Metropolitan DC 
and Transit Police, New Jersey Transit Police, Philadelphia Police, and 
other New Jersey and Pennsylvania State law enforcement, agreed to 
provide periodic support to Amtrak by boarding trains with officers and 
bomb dogs at key stations, conducting surveillance of the track and 
other facilities, and conducting other protective measures. This 
coalition began their work starting in July 2006, and we are pleased to 
report has become an integral part of Amtrak's security operations.
    During the last year, the Amtrak OIG has also placed a special 
emphasis on security at Washington DC's Union Station. Union Station is 
one of the most visited sites in the District and is a major 
transportation hub for Virginia and Maryland rail services as well as 
the anchor for Amtrak's Northeast Corridor. We have worked with Amtrak 
Police, local Amtrak managers, local property management, adjacent 
facility owners, and with transit and local police to establish a 
Station Action Team. This group is dedicated to sharing security and 
emergency preparedness information and will become a model for other 
major urban stations. The OIG facilitated the creation of this team, 
and we have prepared special security briefings that I would be happy 
to share with the Committee or interested Members in a closed setting.

Recommendations
    Making rail security a national priority is a shared responsibility 
among a number of Federal departments and agencies, which also requires 
the full commitment of private and other public sector stakeholders.

    1. Technology Centers
    The Committee has recognized the need for more collaborative 
research and development and technology convergence to develop 
affordable and effective rail security solutions; we very much agree. 
There are considerable challenges for passenger carriers to find and 
apply the most appropriate security technologies to fit their 
environments. Much of what has been accomplished to date by passenger 
rail is accomplished by information exchanges through existing industry 
associations and through professional relationships and vendor 
marketing. There has been some assistance provided by DHS in the form 
of providing screening equipment for pilot projects and special 
security events, but much more can be done in this area.
    It is also appropriate to recognize important work being done in 
security technology advancement by the rail industry. The AAR maintains 
a Transportation Technology Center (TTCI) in Pueblo, Colorado, which is 
used for both testing and training purposes, and Amtrak routinely uses 
TTCI services for equipment testing.

    2. ``Building In'' Security
    Wherever possible, there should be criteria to guide design, 
engineering, and procurement activity with an agreed-upon set of 
security standards and requirements for capital projects. There is 
considerable opportunity for all carriers to examine their general 
capital spending programs to determine where security improvements can 
be made.
    Amtrak plans to work with international engineering standards 
groups to determine what other nation's inter-city rail carriers are 
doing to build-in security into retrofitting projects as well as new 
construction.

    3. Standards Development
    One of the difficulties we have encountered in evaluating Amtrak's 
efforts to improve its security posture is the lack of security 
standards. Although some security directives were prepared by DHS in 
May 2004, these directives are not necessarily the comprehensive bases 
for an effective rail passenger security strategy.
    The Committee should look to APTA, which is recognized as a 
Standards Development Organization, as a starting point to develop 
baselines for rail security and emergency preparedness best practices. 
Amtrak also is re-examining its responsibilities and will most likely 
develop its own baseline and security standards, working closely with 
its rail and transit partners, as well as DHS.

    4. Passenger & Baggage Screening
    In testimony in March 2006, the GAO reported on the results of 
their evaluations of the security practices of domestic and selected 
foreign transit operators (www.gao.gov/new.items/d06557t.pdf). Included 
in their testimony were recommendations, with certain caveats, to 
consider implementing three practices they observed not being widely 
used: covert testing, random screening, and establishing a government-
sponsored clearing house for technologies and best practices.
    In my opinion, some level of passenger and limited baggage 
screening on Amtrak is inevitable, especially during times of high 
alert, when there is actionable intelligence, during special events, 
and when police and security believe such security steps add real 
value. Amtrak cannot go down the path of the aviation experience, but 
it will have to develop criteria that are defensible, consistent with 
its business model, and effective.

Conclusions
    There are a number of good people trying to do the `right thing' 
about rail security, but these efforts are not yet well integrated into 
a larger transportation strategy. Our collective oars are not in the 
water at the same time. Through your efforts, and with the help of 
Amtrak's authorizing and appropriations committees, I hope we find the 
convergence that leads to unified approaches to formulating security 
plans and processes.
    In a moment of decision, the best thing you can do is the right 
thing. The worst thing you can do is nothing. (Theodore Roosevelt)

    Ms. Jackson Lee. Ms. Wilson?

    STATEMENT OF NANCY WILSON, VICE PRESIDENT FOR SECURITY, 
               ASSOCIATION OF AMERICAN RAILROADS

    Ms. Wilson. Thank you very much, Madam Chairwoman. On 
behalf of the members of the Association of American Railroads, 
I want to thank you for the opportunity to discuss railroad 
industry security programs.
    Freight railroads acted immediately to improve security 
after 9/11. We did not wait for government mandates to develop 
a comprehensive security plan. Within days of the terrorist 
attack, we created a top-level security task force comprised of 
more than 150 railroads.
    Freight railroads acted immediately to improve security 
after 9/11. We did not wait for government mandates to develop 
a comprehensive security plan. Within days of the terrorist 
attack, we created a top-level security task force comprised of 
more than 150 railroad, customer and intelligence personnel to 
conduct an exhaustive evaluation of freight rail security 
issues.
    The result was the AAR Terrorism Risk Analysis and Security 
Management Plan, a risk-based, intelligence-driven blueprint of 
actions designed to raise the baseline of freight rail 
security. The plan has been in effect since December 6, 2001. 
As a result of that plan, freight railroads enacted more than 
50 permanent security countermeasures to address the terrorist 
threat. Railroads provided security awareness briefings to 
employees who were instructed to maintain high awareness and to 
immediately report suspicious activity.
    In addition, the plan defines four progressively higher 
security alert levels and details a series of actions to be 
taken at each alert level. Railroads test the plan through 
tabletop exercises twice yearly and modify it as needed to 
ensure maximum continued effectiveness.
    Because of the open nature of our 140,000-mile network, our 
security program relies heavily on timely receipt and analysis 
of intelligence information. To facilitate this, railroads 
established a 24/7 operation center that is in constant 
communication with government security agencies and individual 
railroad operations centers. A railroad police officer sits on 
the National Joint Terrorism Task Force to help assess 
information that may impact railroad security.
    One area of particular concern for us is the movement of 
toxic inhalation hazard materials, or TIH. These commodities 
constitute .03 percent of our total freight volume, but are 
responsible for more than half of our insurance liability 
costs. Because railroads are common carriers, they are required 
to carry these materials whether they want to or not. The 
railroads comply with this government mandate, but in doing so 
they place their very existence at risk.
    Experience has shown that accidents involving these 
commodities can result in huge judgments, even where no one 
gets hurt and the railroad is not at fault. The current 
environment for rail transportation of highly hazardous 
materials, especially TIH, is untenable. If the federal 
government is going to require railroads to transport these 
substances, it must address the bet the company risks it forces 
railroads to assume. Congress should address this either by 
enacting a liability cap or by relieving railroads of their 
common carrier obligation with respect to highly hazardous 
materials. In the long run, we believe, as does the GAO and the 
National Research Council, that less hazardous substances 
should be substituted for highly hazardous materials.
    We also believe that forced re-routing does nothing to 
enhance security, but merely shifts potential risk from one 
area to another and could force railroads to less direct, less 
safe routes. Our security efforts rely heavily on our 
industry's dedicated and highly professional employees. They 
are our eyes and ears for security. Railroads train their 
employees to be vigilant, to report suspicious objects and 
activities, and to keep out of harm's way.
    Railroads began implementing employee security training 
programs shortly after 9/11. Subsequently, railroads 
collaborated with the National Transit Institute at Rutgers 
University, which used funding from TSA to develop an 
interactive uniform security awareness curriculum for public 
transit employees. AAR adapted that curriculum for use by rail 
freight employees.
    The standardized curriculum includes four modules entitled 
``What is Security?,'' ``Vulnerability Risk and Threat,'' 
``What to Look For,'' and ``The Employee's Role in Reducing 
Risk.'' The goal is to provide risk employees with an 
understanding of their roles and responsibilities, and how to 
implement their company's procedures upon detection of 
suspicious objects or activities.
    It should be noted that railroads do not ask their 
operating employees to put themselves in harm's way. Instead, 
they are expected to follow the company's policies and 
procedures, inform the appropriate authority of the situation, 
move to a safe location, and wait for further instructions. 
Railroads employ railroad police and hazardous materials 
experts who are especially trained and equipped to handle 
potentially dangerous situations.
    Recently, TSA inspectors conducted a survey of 2,600 
freight rail employees and determined that 80 percent meet or 
exceed the desired level of security awareness. By the end of 
this year, all rail employees will have received this new 
training. Railroads are proud of the success they have achieved 
in enhancing security, while keeping our nation's vital rail 
network operating efficiently and safely. We will continue to 
work with the Congress, federal agencies and other relevant 
parties to improve security and safety even more.
    Thank you.
    [The statement of Ms. Wilson follows:]

                   Prepared Statement of Nancy Wilson

    On behalf of the members of the Association of American Railroads 
(AAR), thank you for the opportunity to discuss security from a freight 
railroad perspective. Members of the AAR account for the vast majority 
of railroad mileage, employees, and revenue in Canada, Mexico, and the 
United States.
    Unlike U.S. passenger railroads and transit systems, U.S. freight 
railroads are, with minor exceptions, privately owned and operated, and 
they rely almost exclusively on their own earnings to fund their 
operations. Freight railroads are critical to our economic health and 
global competitiveness. They move approximately 40 percent of our 
nation's freight (measured in ton-miles)--everything from lumber to 
vegetables, coal to orange juice, grain to automobiles, and chemicals 
to scrap iron--and connect businesses with each other across the 
country and with markets overseas.
    From 1980 through 2006, Class I \1\ railroads spent more than $370 
billion--more than 40 cents out of every revenue dollar--on capital 
expenditures and maintenance expenses related to infrastructure and 
equipment. Non-Class I carriers had billions of dollars of additional 
spending. These massive, privately-funded expenditures help ensure that 
railroads can meet our current and future freight transportation 
demands safely and cost effectively.
---------------------------------------------------------------------------
    \1\ U.S. freight railroads are classified on the basis of revenue. 
The seven Class I railroads each had revenue of at least $319 million 
in 2005. Class I carriers comprise 1 percent of freight railroads, but 
account for 70 percent of the industry's mileage operated, 89 percent 
of its employees, and 93 percent of its freight revenue.
---------------------------------------------------------------------------
    As the Federal Railroad Administration (FRA) noted in testimony to 
this committee last week, ``The railroads have an outstanding record in 
moving all goods safely.'' Indeed, nothing is more important for 
railroads than the safety and security of their operations. For 
railroads, safety and security are interconnected: a safer workplace 
will tend to be a more secure workplace, and a more secure workplace 
will tend to be a safer workplace. And railroads have become much 
safer. According to FRA data, railroads reduced their overall train 
accident rate by 64 percent from 1980--2005, and their rate of employee 
casualties by 79 percent. Railroads have lower employee injury rates 
than other modes of transportation and most other major industry 
groups, including agriculture, construction, manufacturing, and private 
industry as a whole.
    We should also be encouraged by the continuing improvements in rail 
safety. Based on preliminary data for the first 11 months, 2006 was the 
safest year ever for railroads by the three most commonly-cited rail 
safety measures: the train accident rate, the employee casualty rate, 
and the grade crossing collision rate all reached record lows.
    Freight railroads are justifiably proud of these accomplishments. 
At the same time, though, railroads want rail safety and security to 
continue to improve, and they are always willing to work cooperatively 
with members of this committee, others in Congress, the Department of 
Homeland Security (DHS), the FRA, rail employees, and others to find 
practical, effective ways to make this happen.
    Below I will discuss the many ways that U.S. freight railroads have 
addressed security in the post 9-11 era and how security efforts 
(including hazmat security) can be improved.

The Aftermath of September 11
    Almost immediately after the 9/11 attacks, the AAR Board of 
Directors established a Railroad Security Task Force. The overarching 
goals of this task force were to (1) help ensure the safety of rail 
employees and the communities in which railroads operate; (2) protect 
the viability of national and regional economic activity; and (3) make 
certain that railroads can continue to play their vital role in support 
of our military.
    Over the next several months, the task force conducted a 
comprehensive risk analysis of the freight rail industry. Using CIA and 
national intelligence community ``best practices,'' five critical 
action teams (consisting of more than 150 experienced railroad, 
customer, and intelligence personnel) examined and prioritized railroad 
assets, vulnerabilities, and threats. Critical action teams covered 
information technology and communications; physical infrastructure; 
operational security; hazardous materials; and military traffic needs. 
Freight railroads also cooperated fully with a separate team covering 
passenger rail security.

The Railroad Terrorism Risk Analysis and Security Management Plan
    The end result of these analyses was the creation of the industry's 
Terrorism Risk Analysis and Security Management Plan, a comprehensive, 
intelligence-driven, priority-based blueprint of actions designed to 
enhance freight rail security. The plan was adopted by the AAR in 
December 2001 and remains in effect today.
    As a result of the plan, freight railroads quickly enacted more 
than 50 permanent security-enhancing countermeasures. For example, 
access to key rail facilities and information has been restricted, and 
cyber-security procedures and techniques have been strengthened. In 
addition, the plan defines four progressively higher security alert 
levels and details a series of actions to be taken at each level:
    Alert Level 1 is ``New Normal Day-to-Day Operations'' and exists 
when a general threat of possible terrorist activity exists, but 
warrants only a routine security posture. Actions in effect at this 
level include conducting security training and awareness activities; 
restricting certain information to a need-to-know basis; restricting 
the ability of unauthorized persons to trace certain sensitive 
materials; and periodically testing that security systems are working 
as intended.
    Alert Level 2 (the level in effect today) is ``Heightened Security 
Awareness.'' It applies when there is a general non-specific threat of 
possible terrorist activity involving railroad personnel and 
facilities. Additional actions in effect at this level include security 
and awareness briefings as part of daily job briefings; content 
inspections of cars and containers for cause; and spot content 
inspections of motor vehicles on railroad property.
    Alert Level 3 means there is ``a credible threat of an attack on 
the United States or railroad industry.'' Examples of Level 3 actions 
include further restricting physical access and increasing security 
vigilance at control centers, communications hubs, and other designated 
facilities, and requesting National Guard security for critical assets.
    Alert Level 4 applies when a confirmed threat against the rail 
industry exists, an attack against a railroad has occurred, an attack 
in the United States causing mass casualties has occurred, or other 
imminent actions create grave concerns about the safety of rail 
operations. Security actions taken at this level include stopping non-
mission-essential contractor services with access to critical 
facilities and systems; increasing vigilance and scrutiny of railcars 
and equipment during mechanical inspections to look for unusual items; 
and continuous guard presence at designated facilities and structures.
    Alert Levels 3 and 4 can be declared industry-wide for a short 
period of time or, if intelligence has identified that terrorist action 
against a specific location or operation is imminent, for a particular 
geographic area (e.g., the Midwest) or subset of rail traffic (e.g., 
hazardous materials).
    Railroads test their security plan through table-top exercises 
twice yearly, and evaluate and modify it as needed to ensure maximum 
continued effectiveness.
    Access to pertinent intelligence information is a critical element 
of the plan. To this end, the rail industry is in constant 
communication with the Transportation Security Administration (TSA) and 
elsewhere within DHS, the Department of Defense (DOD), the Department 
of Transportation (DOT), the FBI's National Joint Terrorism Task Force 
(NJTTF), state and local law enforcement, and others. A railroad police 
officer and railroad analysts who hold Top Secret clearances work with 
government intelligence analysts at NJTTF and at DHS to help evaluate 
intelligence and serve as subject matter experts.
    Intelligence information, in turn, is disseminated through the 
Railway Alert Network (RAN), a secure 24/7 communications network 
operated by the AAR at the Secret level that links federal security 
personnel with railroad operations centers. Through the RAN, railroads 
and the intelligence community share information to maintain 
situational awareness and immediately institute appropriate alert 
levels.
    Communication is also enhanced by the Surface Transportation 
Information Sharing and Analysis Center (ST-ISAC), which was 
established by the AAR at the request of the DOT. The ST-ISAC collects, 
analyzes, and distributes security information from worldwide resources 
to help protect vital information technology systems and physical 
assets from attack. It operates 24/7 at the Top Secret level. The ST-
ISAC grew out of Presidential Decision Directive 63 (May 22, 1998), 
which recognizes freight railroads as ``essential to the minimum 
operations of the economy and government.''
    Rail security efforts strongly benefit from the fact that major 
railroads have their own police forces. Security would be enhanced if 
police officers of one railroad were permitted to exercise law 
enforcement powers on the property of another railroad. This 
flexibility could prove especially valuable in the event of a national 
security threat involving an individual railroad. AAR strongly supports 
legislation, such as S. 184 (the ``Surface Transportation and Rail 
Security Act of 2007'') that would grant this flexibility.\2\
---------------------------------------------------------------------------
    \2\ The measure was also contained in legislation (H.R. 2351) 
introduced in the 109th Congress sponsored by Rep. James Oberstar, 
chairman of the House Transportation and Infrastructure Committee.
---------------------------------------------------------------------------
    Notwithstanding rail industry efforts, there can be no 100 percent 
guarantee against terrorist assaults, including assaults involving 
hazardous materials (hazmat) on railroads. If such an incident occurs, 
railroads have well-established programs and procedures that would be 
invoked that are designed to respond to and minimize the impact of such 
incidents.
    In this regard, emergency response efforts are critical. Railroads 
help communities develop and evaluate hazmat emergency response plans. 
Through their own efforts and the Transportation Community Awareness 
and Emergency Response Program (TRANSCAER), they provide basic training 
for more than 20,000 emergency responders each year.
    In addition, more than 20 years ago, the AAR established the 
Emergency Response Training Center (ERTC), a world-class training 
facility that is part of the Transportation Technology Center, Inc. 
(TTCI) in Pueblo, Colorado. The ERTC has provided in-depth hazmat 
emergency response training to more than 38,000 emergency responders 
and railroad and chemical industry professionals from all over the 
country and abroad. Most recently, the ERTC agreed to provide critical 
training for 100 new rail security inspectors hired by the TSA. This 
summer, ERTC will be training NJTTF personnel.
    The ERTC is considered by many to be the ``graduate school'' of 
hazmat training because of its focus on comprehensive, hands-on 
training using actual rail equipment. TTCI boasts a collection of 
around 70 rail freight cars (including tank cars), some 15 rail 
passenger cars, 25 highway cargo tanks, van trailers, and intermodal 
containers, as well as computer work stations equipped with the latest 
emergency response software. TTCI is currently developing a Passenger 
Railcar Security and Integrity Training Facility to test the 
effectiveness of various response and remediation techniques in 
mitigating incidents involving passenger trains. This facility focuses 
on chemical, biological, radiological, nuclear, or explosive incidents 
and other activities associated with potential terrorist events.
    The AAR strongly supports legislation soon to be introduced by Rep. 
John Salazar that would make TTCI a member of the National Domestic 
Preparedness Consortium (NDPC), which is a group of premier 
institutions that develop, test, and deliver training to state and 
local emergency responders. Today, a facility specifically targeted at 
emergency response training for freight and passenger railroad 
environments is notably absent from the NDPC. Including TTCI in the 
NDPC offers a unique opportunity to improve our nation's ability to 
prevent, minimize, and respond to potential rail-related terrorist 
attacks similar to those witnessed in London and Madrid.
    The rail industry is pleased that many members of Congress have had 
the opportunity to visit TTCI in person. I extend an open invitation to 
all members of this committee to visit the facility where they can gain 
first-hand knowledge of its capabilities.

Hazardous Materials Movements by Rail
    Each year, 1.7 to 1.8 million carloads of hazardous materials are 
transported by rail in the United States, with two-thirds moving in 
tank cars. ``Toxic inhalation hazards'' (TIH)--gases or liquids, such 
as chlorine and anhydrous ammonia, that are especially hazardous if 
released--are a subset of hazardous materials and are a major (though 
not exclusive) focus of hazmat-related rail safety efforts. In each of 
the past couple of years, railroads have transported just over 100,000 
carloads of TIH, virtually all in tank cars.
    Railroads recognize and deeply regret the occurrence of a few 
tragic accidents involving hazardous materials over the past couple of 
years. Nevertheless, the rail hazmat safety record is extremely 
favorable. In 2005, 99.997 percent of rail hazmat shipments reached 
their final destination without a release caused by an accident. 
Railroads reduced hazmat accident rates by 86 percent from 1980 through 
2005.
    Still, no one disputes that efforts should be made to increase 
hazmat safety and security where practical. Railroads understand this 
better than anyone. Today, the federal government, through the 
railroads' common carrier obligation, requires railroads to transport 
highly-hazardous materials, whether railroads want to or not. Unlike 
firms in other industries, including other transportation companies, 
railroads today have not been able to ``just say no'' to entering into 
a business relationship with consumers or manufacturers of these 
materials.
    Absent railroads' common carrier requirement, many railroads would 
not transport these materials because of the potentially ruinous claims 
that could arise in the event of a catastrophic accident involving a 
release of these materials. Indeed, while accidents involving highly-
hazardous materials on railroads are exceedingly rare, history 
demonstrates that railroads can suffer multi-billion dollar judgments, 
even for accidents where no one gets hurt and the railroads do nothing 
wrong. Drunk drivers, impatient motorists driving around a grade 
crossing gate or ignoring a signal at a grade crossing, faulty repairs 
by the owner of a tank car, and pranksters--not terrorists--have caused 
incidents that could have been disastrous if they had involved the 
release of these materials.
    A few years ago in New Orleans, a tank car that railroads did not 
own containing more than 30,000 gallons of liquid butadiene began to 
leak. Vapor from the butadiene tank car rolled out across a 
neighborhood until the pilot light of an outdoor gas water heater 
ignited it. More than 900 people were evacuated. The National 
Transportation Safety Board found that the probable cause of the 
accident was an improper gasket that a chemical company had installed 
on the tank car. Nevertheless, a state court jury entered a punitive 
damages verdict against the railroads involved in the amount of $2.8 
billion.
    In essence, the transport of highly-hazardous materials is a ``bet 
the business'' public service that the government makes railroads 
perform.
    Railroads face these huge risks for a tiny fraction of their 
business. In 2005, railroads moved just over 100,000 TIH carloads and 
nearly 37 million total carloads. Thus, shipments of TIH constituted 
only about 0.3 percent of all rail carloads. The revenue that highly-
hazardous materials generate does not come close to covering the 
potential liability to railroads associated with this traffic. 
Moreover, the insurance industry is unwilling to fully insure railroads 
against the multi-billion dollar risks associated with highly-hazardous 
shipments. And even though TIH accounts for a tiny fraction of rail 
carloads, it contributes approximately 50 percent of the rapidly-rising 
overall cost of railroad insurance.
    For all these reasons, the current environment for the rail 
transportation of highly-hazardous materials, especially TIH, is 
untenable. If the federal government is going to require railroads to 
transport highly-hazardous materials, it must address the``bet the 
company'' risk it forces railroads to assume.
    Congress can address this inequity in one of at least three ways. 
First, Congress could create a statutory liability cap for the 
railroads similar to the one that applies to Amtrak. Amtrak's total 
liability for all claims, including punitive damages, from a single 
accident--regardless of fault--is capped at $200 million. Congress 
could enact a similar type of cap on the liability a freight railroad 
would incur from an accident involving highly-hazardous materials, 
regardless of fault, with the government paying liabilities in excess 
of the cap.
    Congress could also enact a Price-Anderson type solution. Price-
Anderson limits the liability of a company from an incident involving 
the release of nuclear material, including in transportation, and 
provides for a fund to which all owners of nuclear power plants 
contribute when an incident occurs to cover any damages in excess of 
that limit. Under a similar proposal for TIH, the railroad would be 
liable for some defined amount of damages arising from a railroad 
accident involving a highly-hazardous material. Any damages above that 
defined amount would be paid from a fund to which producers and end-
users of these materials would contribute in the event of an incident.
    The main purpose of such legislation would be to cap the railroad's 
liability for claims, while still ensuring compensation for the general 
public. However, it also seeks to balance the societal need to 
compensate the injured and damaged with the need for any railroad 
involved to be able to continue to operate and remain viable.
    Both of these proposals leave railroads with a substantial amount 
of liability. Both are also reasonable, given railroads' federally-
imposed common carrier obligation and given that accidents occur even 
when railroads operate carefully and safely. Under either proposal, 
limiting freight railroads' liability from an accident involving 
highly-hazardous materials would reduce the railroads' risk exposure. 
It would also bring certainty to the insurance market, and hopefully 
more insurance companies would once again be willing to offer railroads 
coverage.
    Absent these two alternatives, Congress should relieve railroads of 
their common carrier obligation to haul TIH and other highly-hazardous 
materials. If Congress will not provide some degree of protection from 
unlimited potential liability from transporting these materials, then 
it should not mandate that the railroads' shareholders assume that 
risk. Rather, railroads should be permitted to decide for themselves 
whether to accept, and at what price they are willing to accept, such 
materials for transportation.

    What Railroads Are Doing
    In the meantime, railroads support prompt, bold actions by all 
stakeholders to reduce the risks associated with hazmat transport. 
Railroads themselves are taking the lead:
        <bullet> In December 2006, an industry committee approved a new 
        standard for chlorine and anhydrous ammonia tank cars that will 
        significantly reduce the risk of a release. (Anhydrous ammonia 
        and chlorine combined account for around 80 percent of rail TIH 
        movements.) The standard will be phased in beginning in 
        2008.\3\
---------------------------------------------------------------------------
    \3\ The delay in implementation is due to an FRA request.
---------------------------------------------------------------------------
        <bullet> As noted earlier, railroads help communities develop 
        and evaluate emergency response plans; provide training for 
        more than 20,000 emergency responders each year through their 
        own efforts and the Transportation Community Awareness and 
        Emergency Response Program (TRANSCAER); and support Operation 
        Respond, a nonprofit institute that develops technological 
        tools and training for emergency response professionals.
        <bullet> Railroads work closely with chemical manufacturers in 
        the Chemical Transportation Emergency Center (Chemtrec), a 24/7 
        resource that coordinates and communicates critical information 
        for use by emergency responders in mitigating hazmat incidents.
        <bullet> Upon request, railroads provide local emergency 
        response agencies with, at a minimum, a list of the top 25 
        hazardous materials transported through their communities. The 
        list helps responders prioritize emergency response plans.
        <bullet> For trains and routes carrying a substantial amount of 
        highly-hazardous materials, railroads utilize special operating 
        procedures to enhance safety.
        <bullet> Railroads participate in a variety of R&D efforts to 
        enhance tank car and hazmat safety. For example, the Tank Car 
        Safety Research and Test Project (which is funded by railroads, 
        tank car builders, and tank car owners) analyzes accidents 
        involving tank cars to help identify the causes of tank car 
        releases and prevent future occurrences.
        <bullet> In addition to implementing their Terrorism Risk 
        Analysis and Security Management Plan, railroads are working 
        with DHS and the DOT to identify opportunities to reduce 
        exposure to terrorism on rail property.
        <bullet> Railroads offer hazmat awareness training to all 
        employees who are involved in hazmat transportation. Employees 
        responsible for emergency hazmat response efforts receive far 
        more in-depth training.
        <bullet> Railroads are pursuing a variety of technological 
        advancements to enhance rail safety, including hazmat safety.
        <bullet> Railroads are working with TIH manufacturers, 
        consumers, and the government to explore the use of coordinated 
        routing arrangements to reduce the mileage and time in transit 
        of TIH movements.

What Hazmat Manufacturers and Consumers Should Do
    Manufacturers and consumers of hazardous materials should take a 
number of steps to help ensure hazmat safety.
    First, concerted efforts should be made to encourage development 
and utilization of ``inherently safer technologies,'' which involve the 
substitution of less-hazardous materials for highly-hazardous 
materials, especially TIH, in manufacturing and other processes. As 
noted in a recent report by the National Research Council (part of the 
National Academy of Sciences), ``the most desirable solution to 
preventing chemical releases is to reduce or eliminate the hazard where 
possible, not to control it.'' Ways this can be achieved include 
``modifying processes where possible to minimize the amount of 
hazardous material used'' and ``[replacing] a hazardous substance with 
a less hazardous substitute.'' \4\ In a similar vein, in a January 2006 
report, the Government Accountability Office (GAO) recommended that the 
Department of Homeland Security ``work with EPA to study the advantages 
and disadvantages of substituting safer chemicals and processes at some 
chemical facilities.''\5\
---------------------------------------------------------------------------
    \4\ Terrorism and the Chemical Infrastructure: Protecting People 
and Reducing Vulnerabilities, National Research Council--Board on 
Chemical Sciences and Technology, May 2006, p. 106.
    \5\ Homeland Security: DHS is Taking Steps to Enhance Security at 
Chemical Facilities, but Additional Authority is Needed, Government 
Accountability Office, January 2006, p. 7.
---------------------------------------------------------------------------
    One real-world example of product substitution occurred at the Blue 
Plains wastewater treatment facility just a few miles from the U.S. 
Capitol. Like many wastewater treatment facilities, Blue Plains used 
chlorine to disinfect water. Not long after 9/11, the facility switched 
to sodium hypochlorite, a safer alternative.
    Railroads recognize that the use of TIH cannot be immediately 
halted. However, over the medium to long term, product substitution 
would go a long way in reducing hazmat risks.
    Second, manufacturers and receivers of TIH, in conjunction with 
railroads and the federal government, should continue to explore the 
use of ``coordination projects'' to allow TIH consumers to source their 
needs from closer suppliers. For manufacturers and users, this could 
involve ``swaps.'' For example, if a chlorine user contracts with a 
chlorine supplier located 600 miles away, but another supplier is 
located 300 miles away, the supplier located 600 miles away might agree 
to allow the closer shipper to supply the user.
    Third, hazmat consumers and manufacturers should support efforts 
aimed at increasing tank car safety and reliability. Recently, for 
example, the FRA, Dow Chemical, Union Pacific, and the Union Tank Car 
Company announced a collaborative partnership to design and implement a 
next-generation railroad tank car. (TTCI has been selected to support 
testing and developments initiatives related to this project.)

What the Government Should Do
    The government too has a key role to play. First, as noted earlier, 
if the government requires railroads to transport highly-hazardous 
materials (via their common carrier obligation), it must address the 
``bet the company'' risk this obligation forces railroads to assume.
    Second, the government should help facilitate the ``coordinated 
routing arrangements'' and ``coordination projects'' mentioned earlier.
    Third, the government should encourage the rapid development and 
use of ``inherently safer technologies'' to replace TIH and other 
highly-hazardous materials.
    Fourth, the government should reject proposals that would allow 
state or local authorities to ban hazmat movements through their 
jurisdictions or order railroads to provide local authorities advance 
notification of hazmat movements through their jurisdictions.
    The purposes of these types of proposals are protection of the 
local populace against hazmat incidents, including terrorist attack 
(especially in perceived ``high threat'' areas), and enhancing the 
ability to react more quickly to hazmat incidents. The proposals may be 
well intended, but the end result of their enactment on a locality-by-
locality basis would likely be an increase in exposure to hazmat 
release and reduced safety and security.
    Banning hazmat movements in individual jurisdictions would not 
eliminate risks, but instead would shift them from one place to another 
and from one population to another. In shifting that risk, it could 
foreclose transportation routes that are optimal in terms of overall 
safety, security, and efficiency and force railroads to use less 
direct, less safe routes.
    The rail network is not similar to the highway network where there 
are myriad alternate routes. In the rail industry, rerouting could add 
hundreds of miles and several days to a hazmat shipment, and those 
extra miles and days could be on rail infrastructure that is less 
suitable (for a variety of reasons) to handling hazmat. Additional 
switching and handling of cars carrying hazmat could be needed, as 
could additional dwell time in yards. As the Department of Justice and 
DHS noted in a joint brief opposing a proposed D.C. hazmat ban, the 
increase in the total miles over which hazmat travels and the increase 
in total time in transit would ``increase their exposure to possible 
terrorist action,'' and therefore potentially reduce safety and 
security.\6\ The U.S. DOT also submitted a statement recognizing that 
banning hazmat shipments through certain areas reduces both safety and 
security.
---------------------------------------------------------------------------
    \6\ It has been estimated, for example, that a ban on hazmat 
transport through the District of Columbia would result in some 2 
million additional hazmat car-miles as carriers had to use circuitous 
alternative routes.
---------------------------------------------------------------------------
    If hazmat were banned in one jurisdiction, other jurisdictions 
would undoubtedly follow suit. In fact, that is already happening. In 
the wake of so far unsuccessful attempts by the D.C. City Council to 
ban hazmat movements through Washington, similar efforts are being 
discussed for Atlanta, Baltimore, Boston, Cleveland, Chicago, Las 
Vegas, Memphis, Philadelphia, Pittsburgh, and probably other cities 
too, as well as for all of California.
    An integrated, effective national network requires uniform 
standards that apply nationwide. The clarity and efficiency that 
uniformity brings would be lost if different localities and routes were 
subject to widely different rules and standards, or if local and/or 
state governments could dictate what types of freight could pass 
through their jurisdictions. The problem is especially acute for 
railroads, whose network characteristics and limited routing options 
mean that disruptions in one area can have profound impacts thousands 
of miles away. These disruptions would negatively affect all rail 
traffic, not just hazmat traffic.
    Thus, if policymakers determine that hazmat movements should be 
banned, they should be banned nationwide, rather than on a locality-by-
locality basis.
    Hazmat pre-notification to local authorities is problematic for 
several reasons and may not accomplish the goals of those seeking it.
    First, upon request the rail industry already notifies communities 
of, at a minimum, the top 25 hazardous commodities likely to be 
transported through their area. In the event of a hazmat incident, 
train consists are available to emergency responders, and railroads, at 
TSA request, have agreed to provide movement data on all TIH cars.
    Second, pre-notification would vastly increase the accessibility of 
hazmat location information. Making this information more accessible 
could increase vulnerability to terrorist attack by magnifying the 
possibility that the information could fall into the wrong hands.
    Third, at any one time, thousands of hazmat carloads are moving by 
rail throughout the country, constantly leaving one jurisdiction and 
entering another. The vast majority of these carloads do not--and due 
to the nature of rail operations, cannot be made to--follow a rigid, 
predetermined schedule. The sheer quantity and transitory nature of 
these movements would make a workable pre-notification system extremely 
difficult and costly to implement, for railroads and local officials 
alike. That is why the fire chief of Rialto, California, commented, 
``You'd have to have an army of people to stay current on what's coming 
through. I think it wouldn't be almost overwhelming. It would be 
overwhelming.'' The greater the number of persons to be notified, the 
greater the difficulty and cost.
    Fourth, railroads provide training for hazmat emergency responders 
in many of the communities they serve, and they already have well-
established, effective procedures in place to assist local authorities 
in the event of hazmat incidents.
    Finally, since railroads already make communities aware of what 
types of hazardous materials are likely to be transported through their 
area and since they already provide 24/7 assistance for emergency 
responders (many of whom railroads have trained), it is not at all 
clear that information obtained by local authorities through a pre-
notification system would improve their ability to respond to hazmat 
incidents in any meaningful way.

Rail Employee Security Training
    Railroad security efforts depend a great deal on the efforts of 
railroads' dedicated and highly-professional employees--including 
engineers and conductors aboard trains; maintenance of way crews, 
inspectors, and signalmen working along railroad rights-of-way; 
railroad police officers; and others. They are the ``eyes and ears'' in 
the industry's security efforts, and we should all be grateful for 
their vigilance and care.
    In terms of employee security training, the freight rail industry's 
focus has been on ``see something, say something,'' and ``keep out of 
harm's way.'' The training has encompassed topics such as what to do 
when an employee sees a stranger or suspicious activity on rail 
property; to whom an anomaly should be reported; the need to keep 
information about train movements and cargos confidential; and the need 
to keep rail property secure and safe.
    With 9/11, it became clear to railroads, as it did to firms in 
other industries, that security awareness would have to take on new 
importance. In response, Class I railroads soon thereafter provided a 
training video and/or printed materials to all employees--in most cases 
mailing the materials to employees--homes--that could be characterized 
as ``Security Awareness 101.'' In the materials, the railroads 
expressed to their employees three fundamental expectations that to 
this day remain cornerstones of rail employees' responsibilities 
regarding security: don't put yourself in danger; report suspicious 
activities on or around railroad property; and don't divulge sensitive 
information about rail operations to others.
    Over time, freight railroads began to incorporate security issues 
in a more formal fashion--for example, as part of employees' periodic 
FRA-mandated safety rules recertification, as part of new-hire 
training, and as part of new manager training. Many railroads have 
incorporated security issues into employees' manual of standard 
operating practices. Moreover, all railroads are compliant with U.S. 
DOT-mandated HM-232 security training for employees who handle 
hazardous materials.
    More recently, railroads concluded that rail security would be 
enhanced if rail employee security training was more harmonized across 
railroads through use of a standardized curriculum, and railroads have 
made that harmonization a reality.
    Much has been done in collaboration with the National Transit 
Institute (NTI) at Rutgers University. NTI was established under the 
Intermodal Surface Transportation Efficiency Act of 1991 to develop, 
promote, and deliver training and education programs for the public 
transit industry. Freight railroads are fortunate to have been able to 
take advantage of NTI's success in promoting safety and security in 
public transit to develop an interactive, uniform security awareness 
curriculum for freight railroad employees.
    The standardized curriculum has four modules: What is Security; 
Vulnerability, Risk, and Threat; What to Look For; and Employees' Role 
in Reducing Risk. The goal of the standardized curriculum is to provide 
rail employees with an understanding of their role and responsibility 
in system security, and how to implement their companies' procedures 
upon detection of suspicious objects or activities.
    For example, one module of the curriculum focuses on what system 
security entails in a general sense--i.e., the use of operating and 
management policies and procedures to reduce security vulnerabilities 
to the lowest practical level, as well as a process focusing on 
preventing all levels of crime against people and property. Under a 
system security approach, rail employees are taught to realize that 
they and their duties are part of a larger, extensive system and that 
system security begins with the employee. To that end, employees are 
encouraged to be observant and to be familiar with their companies' 
policies and procedures in the event of a threat or incident.
    Another module of the curriculum covers how to identify suspicious 
or dangerous activities. In the case of suspicious individuals, the 
focus is on behavior--specifically, where the person is, when he or she 
is there, and what he or she is doing. Railroads know that their 
employees know their daily work area better than anyone and are in the 
best position to determine if something looks wrong or is out of place. 
Thus, employee training emphasizes being familiar with the work area; 
observing and reporting suspicious activities and objects; reporting 
missing or malfunctioning equipment; and, if appropriate and endorsed 
by railroad policies, approaching and engaging persons to resolve or 
confirm suspicions. Rail employees are not to approach threatening 
people; try to intervene in dangerous activities; or pick up, touch, or 
move suspicious objects. They are expected to withdraw from dangerous 
environments and situations and are expected to report dangerous 
situations immediately.
    As part of the standardized curriculum, employees are also trained 
how to react to threats, which may take the form of perceived 
suspicious activity, suspicious and/or out-of-place objects or 
vehicles, evidence of tampering with equipment, phone calls or other 
warnings, or other circumstances. Again, railroads do not expect their 
employees to ``play the hero'' by potentially putting themselves in 
harm's way. Instead, they are expected to follow their company's 
policies and procedures, inform the appropriate authority of the 
situation, move to a safe location, and wait for further instructions.
    We submitted our employee security training program both to DHS and 
to FRA for review and comment in February 2006. TSA reviewed the rail 
industry's training program, and advised us that it is ``relevant and 
up-to-date'' and is ``helpful'' in ``rais[ing] the baseline of 
security-related knowledge.''
    Class I railroads will complete security training for front-line 
workers (security personnel, dispatchers, train operators, other on-
board employees, maintenance and maintenance support personnel, and 
bridge tenders) by the end of this year. Going forward, rail employee 
security training will be documented and records of it maintained.
    As the information noted above makes clear, railroads treat very 
seriously their obligations in regard to security and have made 
sustained, earnest efforts to provide their employees with the tools 
and training they need to react appropriately when security-related 
issues arise. Moreover, railroads are not standing still in this 
regard. Through their efforts with NTI and others, railroads are 
continually refining their training efforts to improve their usefulness 
and effectiveness. Railroads are also always open to reasonable, 
constructive suggestions on how employee security training can be 
improved.
    At times, though, some rail industry critics, including some 
elements within rail labor, are not always constructive or reasonable. 
Members of this committee should be made aware that most major freight 
railroads are currently engaged in negotiations concerning a new 
national collective bargaining agreement with more than a dozen unions 
representing rail industry employees. During this period of 
negotiations, union leaders have at times engaged in self-serving 
tactics aimed at the bargaining table that misrepresent the industry's 
strong record of safety and security. A case in point is a recent 
Teamsters-sponsored attack on the rail industry disguised as a 
``study'' of security gaps on U.S. railroads.

Railroad Security Legislation
    A number of proposals have been offered in the Senate and House of 
Representatives regarding railroad security. Freight railroads are 
always ready and willing to discuss how security can be enhanced more 
effectively. To that end, railroads support provisions of rail security 
legislation, some of which are found in S. 184 (the ``Surface 
Transportation and Rail Security Act of 2007'') that:
        <bullet> Provide funding for rail security research and 
        deployment projects and rail security technologies.
        <bullet> Require federal authorities to develop a comprehensive 
        security plan that identifies the most important rail assets 
        and the biggest threats to those assets. The AAR's security 
        plan should be the basis for this federal effort.
        <bullet> Are built upon sound risk management principles, not 
        just reactions to ``what if'' scenarios. Given the limited 
        resources of all parties involved, not every risk can be 
        mitigated. Risk mitigation steps that do not meaningfully 
        alleviate substantive risks or are not cost effective actually 
        degrade security because they take away resources that could be 
        better spent enhancing security in other ways.
        <bullet> Address the ``bet the company'' risk railroads must 
        assume because of their common-carrier obligation to carry 
        highly-hazardous materials.
        <bullet> Allow police officers of one railroad to exercise law 
        enforcement powers on the property of another railroad.
        <bullet> Establish a proper balance between efforts to enhance 
        security and allowing the free flow of goods that is critical 
        to our societal and economic health.
        <bullet> Encourage rapid development and implementation of 
        ``inherently safer technologies'' as substitutes for highly-
        hazardous materials, especially TIH.
        <bullet> Encourage cooperative efforts by TIH transporters, 
        manufacturers, and users to work with appropriate government 
        agencies to move TIH over shorter appropriate routes through 
        ``market swaps'' and other collaborative arrangements. The 
        overarching goal should be to reduce TIH mileage and time in 
        transit.
        <bullet> Ensure that any technology that is mandated to track 
        and locate rail cars carrying hazmat and/or to identify actual 
        or imminent hazmat release is fully proven, functional, 
        reliable, and cost effective, and does not impede or endanger 
        existing railroad systems.
        <bullet> Make expenses mandated by the government (including 
        mandates that result from high-risk corridor assessments) 
        eligible for critical infrastructure protection grants.
        <bullet> Ensure that a non-profit railroad research facility is 
        an eligible recipient of rail security and R&D grants.
        <bullet> Make TTCI a member of the National Domestic 
        Preparedness Consortium.
        <bullet> Engage the expertise and experience of rail industry 
        personnel as significant domestic intelligence assets.

Passenger Railroads
    More than 90 percent of the mileage over which Amtrak operates, as 
well as large portions of the trackage over which many commuter 
railroads operate, are actually owned and maintained by freight 
railroads. Therefore, actions taken by freight railroads to enhance 
security also benefit passenger rail. Freight rail security officials 
coordinate with and support Amtrak and commuter rail security officials 
to, among other things, increase uniformed police presence in rail 
passenger stations. Amtrak, commuter rail and transit authorities, and 
freight railroads receive and share information through the RAN and the 
ST-ISAC.
    That said, freight railroad security plans and procedures are not 
specifically designed to protect passengers or substitute for actions 
that Amtrak or other passenger railroads might choose or be requested 
to take. Moreover, freight railroads should not be expected to cover 
costs associated with passenger rail security, and steps taken to 
enhance passenger security must be designed to minimize undue 
interference with freight railroad operations.

Conclusion
    U.S. freight railroads are proud of the success they achieved in 
keeping our nation's vital rail transport link open following the 
September 11, 2001 terrorist attacks. Since then, railroads have taken 
many steps to increase the security of our nation's rail network, 
including the development of a comprehensive security management plan 
that incorporates four progressively severe alert levels. Railroads 
will continue to work with this committee, others in Congress, federal 
agencies, and all other relevant parties to further enhance the safety 
and security of our nation's railroads and the communities they serve.

    Ms. Jackson Lee. Let me thank you for your testimony.
    I now recognize Mr. Schiliro from MTA to summarize his 
statement for 5 minutes.

    STATEMENT OF LEWIS G. SCHILIRO, DIRECTOR OF INTERAGENCY 
 PREPAREDNESS, METROPOLITAN TRANSPORTATION AUTHORITY, STATE OF 
                            NEW YORK

    Mr. Schiliro. Good afternoon, Madam Chairwoman, and members 
of the subcommittee. I also would like to thank you for the 
opportunity to appear here today.
    I am currently the director of interagency preparedness at 
the MTA. I joined the MTA in 2005, after having served with the 
FBI for 25 years. During that time, I was assigned as the agent 
in charge of both domestic and international terrorism in the 
FBI's New York office, and I subsequently served as director of 
that office from 1998 until 2000.
    My role currently is to ensure that the actions we are 
taking in light of 9/11, Madrid, London, Tokyo and Mumbai will 
prepare the MTA to respond to terrorists and other emergency 
situations. The MTA is the largest transit provider in the 
Western Hemisphere, with over 8 million daily subway, rail and 
bus rides--one-third of all rides taken in the U.S. In 
addition, 900,000 vehicles cross our seven bridges and two 
tunnels each day, carrying over 1.4 million people.
    Certainly, 9/11 was traumatic for New York and our system. 
With three subway stations at Ground Zero and hundreds of 
express and local buses serving its perimeter, we served more 
than 80 percent of the Center's 50,000 workers. We were 
fortunate that day. No one was killed or injured on our system. 
But 9/11 focused us on making our system even more secure. With 
our partners in New York City, New York State, and the federal 
government, we did risk assessments to figure out what we 
needed to do better.
    Those assessments identified $2 billion to $3 billion in 
capital needs. We immediately launched a two-phased capital 
investment program to address those needs and harden our 
system. Phase One, comprised of about $720 million, is now 
nearing completion. While I can't detail in public many of the 
projects we have undertaken, one of the most visible 
initiatives we have done is to install over 1,000 surveillance 
cameras and 3,000 motion detectors in our subways and railroads 
as part of a $260 million integrated electronic surveillance 
system.
    We have just begun work on the $495 million Phase Two 
program, which takes, in turn, the next most critical projects. 
While the first phase is largely funded, Phase Two remains 
largely unfunded. We need your help with these efforts, since 
current DHS assistance is simply not structured to help with 
such a large, but essential, capital investment security 
program. DHS assistance has been helpful with what we refer to 
as ``soft capital'' emergency equipment--radios, bollards and 
training, where monies are provided to help with emergency 
preparedness drills.
    Since 2003, we have received $88 million, only a small 
portion of the $300 million to $400 million we have spent in 
local funds such as growing our police department by 39 
percent, to 755 officers, at a cost of over $70 million, plus 
an additional $37 million in overtime since 2002. We have hired 
an additional 261 bridge and tunnel officers at a cost of $101 
million. We spent $10 million to create and equip a 50-dog 
canine unit, which are specially trained for bomb detection. We 
have added two MTA police department emergency service units at 
a cost of $6 million.
    Costly, but necessary equipment, training and 
communications are also underway. We have also continued to 
undertake real-life emergency drills on all parts of the MTA 
system, something that we have always done. In addition, all 
key operating employees are provided formal security training, 
and we are currently working with our employees and the unions 
to update and review what we do to improve that training even 
more--something that is definitely needed.
    We have also focused on making sure that our customers are 
aware of how they should respond in emergencies. We have 
created the now internationally known, ``If you see something, 
say something,'' campaign, telling our customers in print and 
radio to be vigilant. Enlisting their help has given them an 
outlet to report suspicious activities. Publicly sponsored, it 
has been very positive, and we have shared our materials with 
dozens of systems and municipalities around the globe.
    While I have touched briefly on federal funding, I would 
like to talk about DHS assistance more briefly. You know the 
national numbers, but they mean more in the context of the 
eight million daily riders we provide. In comparative terms, in 
10 weeks we will have transported more people than the domestic 
airlines do all year, and we are but one-third of the daily 
transit ridership nationally. And yet the federal government 
has spent over $24 billion on aviation security since 2001, but 
only $549 million on transit security.
    We don't deny that aviation security is critical and we are 
appreciative of what has been done and provided, but we need 
you to address this dramatic inequity as you shape the DHS 
authorization. We have worked closely with Congress to increase 
federal transit funding from the $65 million provided in 2003, 
$50 million in 2004, to the $175 million provided in 2006 for 
transit passenger and freight rail security. But those amounts, 
taken together, barely make a dent in addressing the $6 billion 
need.
    We look forward to your efforts to help us address the 
global transit needs through an authorization bill, and we 
applaud past efforts to do so. We have worked closely with the 
American Public Transportation Association, and share in their 
concerns. We desperately need a funding program that is based 
on objective and current risk and vulnerability assessments 
applied on a national basis, annual transit and rail security 
funding over the next 10 years that provides transit with a 
minimum of $500 million to $600 million year, a program that 
doesn't require local match. Even though in New York we have 
spent a lot of our own money, such investments are 
fundamentally a federal responsibility and should be based on 
risk, not on the localities' ability to match.
    The federal government could also be the most helpful in 
developing safety and security best practices, guidelines and 
product standards, and most importantly, on research and 
development in technology, as technology will play a critical 
role in future security efforts.
    Madam Chair, in light of the nation's heightened security 
needs since 9/11, we believe that increased federal investment 
in public transportation security by Congress and DHS is 
critical. We urge Congress to act decisively to create a formal 
structure for transit, rail and bridge security funding, and we 
look forward to working with you toward such a goal.
    Thank you, and I look forward to any questions that you may 
have.
    [The statement of Mr. Schiliro follows:]

                Prepared Statement of Lewis G. Schiliro

    Good afternoon Chairwoman Jackson-Lee, Ranking Member Lungren, 
Chairman Thompson, Congressman King, members of the Subcommittee. My 
name is Lewis Schiliro, and I'm the Director of Interagency 
Preparedness at the NYS State Metropolitan Transportation Authority 
(MTA.) I joined the MTA in 2005 after having served with the FBI as 
Assistant Special Agent in Charge of both domestic and international 
terrorism cases in the FBI's New York office from 1994--1995 and 
subsequently as director of that office from 1998--2000.
    My role at the MTA is to ensure that the actions we are taking in 
light of 9/11, Madrid, London, Tokyo and Mumbai, to prepare our 
organization to respond to terrorist and other emergency incidents, are 
the most efficient and effective in terms of their impact on our 
mission to provide as secure an environment for our customers as 
possible. I will talk about that, our relationship with DHS and the 
federal government, and what our security needs are going forward.
    As you may know, the MTA is the largest transit provider in the 
Western Hemisphere and is comprised of several operating entities:
        <bullet> MTA New York City Transit (NYCT)
        <bullet> MTA Long Island Rail Road (LIRR)
        <bullet> MTA Long Island Bus (LIBus)
        <bullet> MTA Metro-North Railroad (MNR)
        <bullet> MTA Bridges and Tunnels (B&T)
        <bullet> MTA Capital Construction (MTA CC)
        <bullet> MTA Bus Company (MTABus)
    We provide over 8 million subway, rail and bus rides each day in 
the NY metro area--roughly one third of all transit rides nationally. 
Approximately 900,000 vehicles cross our 7 bridges and 2 tunnels each 
day, carrying over 1.4 million passengers.

The Impact of 9/11 on the MTA
    Certainly 9/11 was traumatic for the New York metropolitan region 
and our system. We were front and center at Ground Zero, with 3 subway 
stations directly serving the Trade Center site and hundreds of express 
and local buses serving its perimeter. It's likely that more than 80% 
of the Trade Center's 50,000 workers took one or more MTA services to 
get to work each day.
    As tragic as the day was for New York, there was one positive for 
the MTA. Despite one completely destroyed station and 4 others that 
were completely put out of service for as much as a year, not a single 
MTA customer or employee was killed or seriously injured in or on our 
system. On 9/11 our subways whisked tens of thousands of riders from 
the center of the World Trade Center site to safe locations north and 
south. Our buses and subways evacuated millions more from Manhattan 
island. Our railroads took shocked commuters safely to their homes and 
returned with rescue workers who had no other way to get into the City 
to help.
    Since then we have done much work, both internally and with our 
partners in NY City and NY State, the federal government and the 
broader transit industry, to assess the risks of future acts of terror 
on our system and to try to minimize them. We are doing so through a 
series of capital and operating investments in the system and 
additional employee training for our 65,000 employees. Let me first 
talk about the capital and operating investments.

Capital and Operating Security Investments
    In 2002, with the assistance of the Federal Transit Administration, 
we conducted the first of a number of system-wide risk assessments, 
identifying between $2 and $3 billion in needs. We immediately launched 
the first Phase of a two-Phase capital investment program to address 
those needs and harden our system. Phase I, comprised of $720 million 
in investments is now nearing completion. While I cannot go into detail 
in public about many of the projects we have undertaken, one of the 
most visible initiatives we've undertaken are the over 1,000 
surveillance cameras and 3,000 motion sensors we are adding to our 
subways and commuter rail facilities as part of a $260 million 
Integrated Electronic Security System. We have just begun work the $495 
million Phase II, which takes, in turn, the next most critical 
projects.
    Of this more than $1.2 billion total, the only federal capital 
assistance we received was in the immediate aftermath of the 9/11 
attack itself--$143 million from FEMA. That funding was not so much 
structured to address security risks, but to upgrade infrastructure we 
were replacing. That has left us with the task of identifying funds for 
the remainder, and while we have identified local funds for the balance 
of Phase I, Phase II remains largely unfunded. We need your help with 
those efforts, since current DHS assistance is simply not structured to 
help with such large--but essential--capital-intensive security 
investments.
    What DHS assistance has been helpful with has been what we refer to 
as ``soft-capital,'' which includes things like emergency equipment, 
radios and bollards, and ``training'' where monies are provide to help 
with emergency preparedness drills. We are very grateful for the $88 
million we've received to date since 2003, but even that represents a 
small portion of the $300 million to $400 million we've spent in local 
funds in those same areas since 2002.
    For example, we've grown our police department by 39% to 755 
individuals at an additional cost of more than $70 million (plus an 
additional $37 million in overtime) since 2002 and in the same time 
period have added 261 bridge and tunnel officers at a cost of $101 
million. The bridge and tunnel officers inspect vehicles entering our 
bridge and tunnel facilities. We've spent over $10 million to create 
and equip a 50 dog bomb-sniffing team and have added two MTA PD 
emergency service units at an additional $6 million. Additional 
equipment, training and communication efforts have also proven to be 
very costly, but necessary.

Emergency Drills and Training
    We also continue to undertake real-life emergency drills on all 
parts of the MTA system. Much of the reason for our success in 
evacuating Manhattan on 9/11 was that our organization is and has been 
committed to preparing for emergencies. Our agencies have always done 
more than simply write volumes of emergency and response plans that sit 
on shelves. We drill those plans several times a year.
    Some of what we experienced that day had been anticipated in 
previous emergency drills--though admittedly not on as large or 
dramatic a scale. Nonetheless, the experience, lessons learned, and 
perhaps most importantly, the relationships forged in those exercises 
certainly saved lives that day.
    Each of our operating agencies prepare for emergencies regularly in 
terms of both physical drills--with hundreds of participants--and 
table-top drills. NYCT, the largest member of the MTA family, operates 
8,000 subway and 46,000 bus trips a day within New York City. Transit 
conducts four emergency drills annually in conjunction with the MTA PD, 
the LIRR, LIBus and MNR as well as the NYPD, the FDNY, the Emergency 
Medical Service (EMS) and the Office of Emergency Management (OEM).
    In addition, all key NYCT operating employees are provided ongoing 
formal ``eyes & ears'' training; fire protection & evacuation training; 
and DuPont Safety training. Over 45,000 employees have taken these 
courses and we about to conduct a top to bottom update and review of 
those training courses in concert with our represented employees.
    While FRA regulations already require one full-scale drill 
annually, the LIRR conducts a minimum of 4 major full-scale emergency 
drills annually, including one in NY's Penn Station, the busiest 
railroad station in the country. Likewise, MNR conducts a number of 
drills during the year, including one in Grand Central Terminal. The 
carefully crafted emergency scenarios require emergency responders to 
demonstrate skills in communications, fire fighting, rescue, 
extrication, hazardous material and first aid and include county, 
village and town Police, Fire and EMS services throughout Nassau and 
Suffolk Westchester, Orange, Rockland, Dutchess and Putnam counties in 
NY and Fairfield and New Haven counties in CT.
    Railroad emergency preparedness training is conducted at a number 
of locations, from Penn Station and Grand Central Terminal to major 
hubs such as Flatbush/Atlantic Ave Terminal, Jamaica Station, Grand 
Central Terminal, 125th Street, New Haven, as well as shop/yard 
facilities in New York and Connecticut.
    MTA Bridges and Tunnels, which operates 7 bridges and 2 tunnels 
within NYC, the most notable of which includes the nation's longest 
suspension bridge, the Verrazano Bridge, has since conducted over 
twenty multi-agency (MTA PD, NYPD, FDNY, MTA, OEM) exercises that have 
tested preparedness; response; inter-agency cooperation; perimeter 
security; IED mitigation; Hazardous Materials Spills; decontamination, 
and even power reduction scenarios.
    Since 9/11 we've had other real-life opportunities to test what we 
do on a regional scale. When the electrical grids in the Northeast went 
out on August 14th, 2003, we--along with our partners in emergency 
preparedness throughout the region--were able to safely evacuate of 
over 400,000 riders from both underground and elevated parts of our 
system. We're proud that there were no customer or employee injuries in 
those instances--a truly amazing feat.

    Engaging our Customers in Emergency Preparedness
    As you've heard today, we're committed to aggressively training and 
drilling our employees for potential emergencies. But we've also 
focused on making sure that our customers are aware of how they should 
respond in certain situations.
    Through the creation of the widely recognized ``If You See 
Something, Say Something'' customer information campaign, we've 
informed our customers in print and on radio about being vigilant and 
in the process have enlisted their help by giving them an outlet to 
report suspicious activities: 1-888-NYC-SAFE. Public response has been 
extremely positive and we have shared our materials with dozens of 
transit systems and municipalities around the country and the globe.
    In direct response to the lessons learned from the Madrid 
bombings--we both customized our ads to focus on packages left in 
transit vehicles and we've produced Customer Train Evacuation Brochures 
and internet-based evacuation videos that show how to properly evacuate 
subway and commuter railroad cars in an emergency. Printed copies of 
this information were distributed on our subway and rail cars. We've 
made both the printed material and videos available on our website, 
www.mta.info. In addition, we've made these videos widely available to 
local police departments, community groups and the public.
    We also continue to supplement the more formalized training of our 
operating personnel with Employee Safety Guides for all our employees 
that tells them what to look for and how to react in emergencies.

Federal Funding
    While I've touched briefly throughout my remarks on federal funding 
we've received since 9/11, I'd like to talk about DHS assistance more 
broadly. I know you have heard the national numbers on the inequities 
of transit funding on many occasions, but they bear repetition. I will 
do so today in the context of the number of transit riders who use our 
system alone. The 8 million daily rides we provide on our system is 
substantial. However, in comparative terms, in three days we move as 
many people as Amtrak moves all year and in ten weeks as many as the 
domestic airline moves all year. And we're but one-third of the daily 
transit ridership nationally.
    Nonetheless, the federal government has spent over $24 billion on 
aviation security since 2001, but in the same period has allocated but 
$549 million for transit security. We do not deny that aviation 
security is critical--and we are appreciative of what has been provided 
to transit--but we need you to look at this dramatic inequity as you 
shape a DHS authorization.
    We have worked hard with Congress to increase federal transit 
funding from the $65 million provided in 2003 and $50 million in 2004 
to the $175 million provided in 2006 for transit, passenger and freight 
rail security, but those amounts, taken together, barely make a dent in 
addressing the $6 billion in needs identified nationally for transit 
systems alone.
    We look forward to your efforts to help us address the global 
transit need through an authorization bill and we applaud past efforts 
to try and do so. For example, the Senate in 2004 and 2006 passed 
legislation that would provide $3.5 billion over 3 years for transit 
security. Late last week Senate Banking once again advanced similar 
legislation and we anticipate it will move forward through the full 
body. Similar attempts have been made in the House. We hope those 
efforts will serve as the basis for a formal authorization.
    As far as the structure of such an authorization effort is 
concerned, we have worked closely with our colleagues in our national 
trade association, the American Public Transportation Association 
(APTA), to set forth a set of principles that we believe would guide a 
successful effort. Funding is, of course, fundamental to addressing the 
security need of transit systems nationwide. Annual transit and rail 
security funding needs can most likely be addressed over the next ten 
years through a program that provides a minimum of $500--$600 million a 
year.
    In addition, any funding must be structured to provide maximum 
flexibility for local entities to use them for both hard and soft costs 
such as the cost of additional transit agency and local law enforcement 
personnel; funding for over-time costs and extra security personnel 
during heightened alert levels, and; training for security and other 
transit personnel.
    We also urge Congress to resist requiring local match. While in the 
MTA's case, we've spent many local dollars, philosophically, the 
required security investments are fundamentally a federal 
responsibility and should be based on risk, not on a locality's ability 
to match.
    The federal government could also be most helpful in developing 
safety and security best practices, guidelines and product standards. 
At the MTA we are regularly approached by companies who assert that 
they have the best security products on the market, but we have no 
independent way of knowing if those claims are true and against which 
standards they should be judged. We end up being the test bed for some 
of these products--a costly and time consuming process for individual 
transit properties.
    Madame Chair, in light of the nation's heightened security needs 
since 9/11, we believe that increased federal investment in public 
transportation security by Congress and DHS is critical. Terrorist 
attacks against U.S. citizens are clearly a federal responsibility and 
the federal government needs to step up to the plate with adequate 
support for transit security improvements. We at the local level are 
doing far more than our share in this effort and we need the federal 
government to be a full partner across the range of transportation 
modes. We urge Congress to act decisively to create a formal structure 
for transit, rail and bridge security funding. Thank you and I look 
forward to any questions you may have.

    Ms. Jackson Lee. Thank you very much, Mr. Schiliro. You are 
a very good lobbyist, and we thank you for your testimony.
    I thank all the witnesses for their testimony.
    I will remind each member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for questions.
    I will start out simply by indicating that I believe that 
we have unanimity in this committee on the idea of risk-based 
funding. Certainly, you lay out a very stark contrast by way of 
funding between aviation security by the federal government, 
and transit and rail and commuter security.
    Whenever we say this, of course, we qualify it by saying 
that we do understand 9/11's original generation, if you will, 
but we also emphasize the creativity of those who wish to do us 
harm. That is why we are holding this hearing. I would like to 
pose questions to Ms. Wilson. I am going to rapidly try to go 
through the questions.
    Ms. Wilson, why don't you begin by thinking about a very 
unique point that you made about the liability question with 
rails and the transfer of hazardous materials. There are 
overlapping issues there. I want to make sure you distinguish 
safety from security. Safety is one issue, of course. It is 
very important, for it is the precipitous actions of others 
that we might not be aware of. How would you respond to that?
    I am going to give a series of questions, so if you would 
focus on that.
    Mr. Weiderhold, you may recall that according to the GAO, 
the FRA has been focusing its efforts to improve rail safety, 
addressing issues such as human error, inspections and rail 
track failure. Again, those are safety questions. Is there a 
nexus between safety and security concerns? Where do these 
overlap and where do they diverge?
    My concern is that there is rail safety, but there is not 
rail security. Why? Because again, security should impact the 
precipitous actions of others, and it combines knowing 
intelligence and I think very sophisticated security 
protections. What measures have been or can be implemented that 
serve both purposes of safety and security?
    Mr. Schiliro, the Port Authority of New York and New Jersey 
released a report recently that the PATH train tunnels that run 
under the Hudson River are more susceptible to attack than 
previously thought. What steps are being taken to ensure the 
security of the tunnels in New York and elsewhere? You might 
want to add what you think the federal government needs to do, 
and how much money will it cost to ensure these tunnels are 
secure, and who should pay for the security upgrades.
    Let me yield to Mr. Weiderhold first.
    Mr. Weiderhold. Thank you for the question. It is a tough 
one.
    I believe that railroads traditionally, by 
``traditionally'' I mean over decades have found a way to weave 
safety into most everything they do. I have 30 years with the 
railroad. I can tell you that in almost every shop on every 
floor in every station you begin your day with some kind of 
safety message. My definition of success is to get security on 
the same level of safety in our culture. It is not there yet. 
There has been a lot of security training that was started. Ms. 
Wilson talked about the model that freights use, that Amtrak 
customized and used, the same NTI product to generate its 
original training that started in 2005. Additional training for 
what we call the second phase of all employee training started 
just last month.
    The nexus between safety and security is large. While there 
are differences, I can tell you an area such as emergency 
response, whether or not you have an event on the railroad that 
is precipitated by non-terrorists. You have a train derailment. 
That same derailment could have been caused by a terrorist 
activity. The results may very much be the same. So the way 
that you prepare for that, the way that you bring first 
responders on to your property to learn the characteristics of 
your railroad, those are very similar events, very similar 
events.
    I think the differentiation is what you alluded to with 
respect to what I would call the ``means and methods'' of the 
terrorists. We can look at programs like the British Transport 
Police HOT Program and other programs where employees need 
additional training to look for suspicious packages. Trust me, 
that is a lot easier than looking for suspicious persons, 
because there are all kinds of pitfalls with respect to how 
those programs need to be implemented.
    Again, my definition of success for security on the 
railroad is where security takes the same seat, the same front 
seat as safety.
    Ms. Jackson Lee. Thank you.
    Ms. Wilson?
    Ms. Wilson. Thank you.
    We do not make a differentiation between the safety and 
security causes of a catastrophic event involving TIH 
materials. In making this proposal, we looked at a couple of 
examples that currently exist, one of which is that Amtrak 
actually has, by congressional statute, a cap on its liability 
for all claims, including punitive damages. We also looked, as 
an example, at Price-Anderson solutions, where again, 
notwithstanding the cause of a release of nuclear material, the 
liability of nuclear power plant owners would be limited.
    The main purpose of our proposal would be to cap the 
railroad's liability for claims regardless of the cause of the 
release of the commodity, but we would still ensure 
compensation for the general public.
    Ms. Jackson Lee. Would you, then, spend more money on 
security if you had a cap?
    Ms. Wilson. Would we spend more money on security if we had 
a cap? I think the answer to that question, Madam Chairwoman, 
is that we are spending the amount of money that we can 
possibly spend at this time, based on our risk assessments and 
what we have concluded are prudent security investments. 
Obviously, we are also working now with the Department of 
Homeland Security, looking at some additional measures to 
protect TIH shipments in particular, but I don't think that 
there is a relationship there between our request for a cap on 
liability and the amount of money that we would or would not 
spend on security.
    What we are looking for is the ability that should a 
catastrophic event happen, that it would not be a bet-the-
company situation, that we would be able to, after paying 
whatever amount that was determined was appropriate for us to 
pay, up to the limit, but we would still be in a position to 
provide the critical services to this country. So it is a 
matter of survival, really, for our railroads.
    Ms. Jackson Lee. Mr. Schiliro, I am going to ask you to 
hold your answer, and I will have it at the end of my 
colleague's.
    Let me yield now to the ranking member for his questions.
    Mr. Lungren. Thank you very much, Madam Chairman.
    Ms. Wilson, everybody here talked about the various things 
that they thought ought to be done. Many of them had to do with 
money. It sounds like direct outlays from the federal 
government. It sounds like your major focus would be on this 
liability protection.
    Ms. Wilson. It is correct that we are not seeking specific 
funds from the government for additional security measures. We 
have put a number of measures into effect, and our security 
plan actually looks at putting additional alert level actions 
into place, depending on the threat. If legislation were to 
proceed through the House, we would look favorably upon a 
provision that would reimburse the freight railroads for the 
cost of putting these additional counter-measures in place at 
higher alert levels.
    Mr. Lungren. I actually have been impressed overall by what 
the railroads have done on their own volition, beginning with 
the aftermath of 9/11. However, let me just ask you about one 
thing that I have some concern about. That is, what is the 
level of security at rail yards? The reason I ask that is, it 
just appears to me that in many cases I have gone by rail 
yards. There appears to be little fencing, if at all, any 
fencing. And I know there are supposed to be regular 
observation by security and/or railroad police.
    What are you doing in terms of your association and your 
members at reassessing that? Because it just dawns on me that 
that is a tremendous vulnerability. If I ever wanted to attack 
something or plant something on a particular car, it is a lot 
easier to do that when it is sitting than when it is moving.
    Ms. Wilson. Well, I am certainly aware that there has been 
a lot of press recently about rail yards and the perceived lack 
of security. I will say that our members are doing a number of 
things. First of all, as I mentioned, we do instruct our 
employees to be vigilant and report suspicious activities. We 
do ramp up our inspections of all cars during routine 
mechanical inspections, when there is an increased threat 
level, to make sure that there is nothing foreign tacked onto 
one of our freight cars.
    Our members specifically work very closely with state and 
local law enforcement to leverage their resources. We simply 
don't have the security forces to be able to protect everything 
all the time. Frankly, I don't believe that it is the right 
thing to do to try to protect everything all the time. If you 
try to protect everything all the time, you really end up 
protecting nothing.
    So I do believe that we have the right approach to rail 
security with our yards, our operations, our critical 
infrastructure, and that is a risk-based approach that ramps up 
when there is threat information or heightened alert, which is 
why we spend so much time and effort working with the federal 
government to make sure that we are linked to real-time 
security information.
    Mr. Lungren. I am going to keep looking at that particular 
issue, not that I have any expertise in the area, but it does 
appear to me to be a vulnerability. I would like to continue to 
have conversation with your members and your organization on 
that.
    To the other two members on the panel, I would ask this. 
Look, we will be talking about grants and funding and all that 
sort of thing, and believe me, we will get there. But what I 
would like to know from each of you is what is the single most 
important thing, other than funding, that you think would 
enhance security on our rails, the ones for which you are 
responsible? What is the one single thing the federal 
government should do that we are not now doing, other than 
funding?
    Mr. Weiderhold. I will take the first shot at that. In my 
written testimony, sir, I refer to the need. I think part of 
the committee's agenda has been to make sure that DHS ensures 
that the carriers, all of the affected carriers and rail, have 
vulnerability assessments and have security plans. I think you 
are going to find when you go out there that most of the 
carriers do have those plans in place.
    But what I have found, I am an Inspector General for 
Amtrak. We share property with more than 20 different transit 
agencies. In each of those properties, we do not have links to 
security plans. We have good relationships. We have good local 
contacts. But what you could do for us is to make sure that 
when those assessments are made, that they are not just site-
specific, or facility-specific, or carrier-specific, but in 
fact they are linked to the system. They are linked to the 
node. They are linked to the larger critical asset that is out 
there. That would be my first response.
    Mr. Lungren. Thank you.
    Mr. Schiliro?
    Mr. Schiliro. Congressman, it is truly my belief that at 
the MTA, as it is in any agency, people are the most important 
part of this formula, our ability to attract and keep police 
officers and first responders that are dedicated to this 
mission. But it is my belief that in terms of the federal 
response, as I mentioned in my comments, I do believe that we 
need to do a better job in taking the lead on research and 
development--our ability to develop chemical and biological 
detectors, our ability to deploy explosive detection equipment. 
It is my belief that someday that will allow us to better 
secure the infrastructure that we are charged with.
    When we talk about hardening assets, these are things that 
we have to, on our own, take the expense and engineering to 
develop. It is not something that you can go to Home Depot and 
buy a kit to harden a bridge or a kit to harden a tunnel. I 
think that some of those lessons that we are learning, you 
know, the federal government really should take hold of and 
assist us in the development engineering of some of these kinds 
of things.
    Mr. Lungren. Thank you.
    Thank you, Madam Chair.
    Ms. Jackson Lee. Thank you.
    I would like at this time to yield to the distinguished 
chairman of the full committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Madam Chairman.
    Following from the ranking member's comments, Ms. Wilson, a 
lot of people on this committee are very concerned that most of 
the rail yards in this country are not protected. You are aware 
of stories where reporters have walked into a rail yard, left 
their business card on a hazardous tank car, and left.
    In light of situations like that, public is demanding that 
we do something. If we, as members of Congress, don't get 
involved in a real way on rail security, how can the industry 
assure us that it will do something about situations like this?
    Ms. Wilson. Chairman Thompson, I cannot sit here and 
guarantee you that the freight railroad industry will ever be 
in a position to achieve full protection of every rail yard in 
the country. There are thousands of rail yards in this country. 
Many, as you know, are in highly populated areas which is a 
concern to the industry, as well as to the federal government. 
We are working with TSA at this time on two levels--one, some 
voluntary recommended security action items that address TIH 
cars in high-threat urban areas. And another area where we are 
working with TSA is on proposed rules that they have issued, 
which would provide for the attendance of TIH cars in rail 
yards in high-threat urban areas.
    That rule would require the railroads and their customers, 
the containees as well as the suppliers, to make sure that 
every TIH card in a high-threat urban area is not left 
unattended. That proposed rule is out for comment right now. 
The industry is not opposed to the regulation. We are proposing 
a way in which we think we would be able to comply with the 
regulation. Our comments will be filed with the agency next 
week, I believe the 20th is the due date.
    Having said that, still we are not talking about full gates 
and guards with guns. We are talking about a presence around 
TIH cars in these high-threat urban areas.
    Mr. Thompson. Not to cut you off, but I want you to 
understand that it is very difficult for this committee, to 
accept, having full knowledge that people have open access to 
those yards, that the federal government does not have a policy 
in this issue. Now, either we work with the industry or we are 
going to be forced to do it without the industry. I am saying 
to you that it is a real problem.
    My friend from the District of Columbia talks all the time 
about hazardous cargo coming through areas. I am sure she will 
raise it when her time comes. I am told that in most 
communities, when HAZMAT comeS through, they don't have any 
idea of what is on the cargo. They are not notified. If 
something happens, they can't communicate with them from an 
interoperability standpoint.
    These are other issues that this committee will be tasked 
with over the next few weeks in coming up with some realistic 
plans. Otherwise, local government will get involved in the 
issue, which will then create a different dynamic. So I want to 
impress upon you. I am not leaving the passenger folks out. You 
know there are some issues associated on the passenger side 
that we have to address. This notion that we have to leave it 
to either freight or passenger fail, and they will do it right, 
is probably not left up to this committee. But the public is 
saying to us, there are vulnerabilities. We know they are 
there. Members of Congress, what are you going to do about it?
    That is why we are holding the hearing, to hear from the 
industry and other people to get input. So I would implore you 
to try not to defend what you are doing without offering some 
going forward lessons for us to look at. Otherwise, you miss a 
golden opportunity.
    I yield back, Madam Chairman.
    Ms. Jackson Lee. I thank the chairman very much.
    The gentlelady from the District of Columbia? We thank her 
for her service. Congresswoman Norton, 5 minutes.
    Ms. Norton. Thank you very much, Madam Chair. I thank the 
chairman for opening up this hazardous substance matter with 
me.
    I think you may be surprised, Ms. Wilson, to see how I 
approach it. I want to thank the chairman for working with me 
on the major bill on passenger security, and the chair of our 
new committee for making this the first order of priority. This 
is a big fat hole in homeland security, and it is called all of 
ground transportation, frankly--rail, metro, buses, you name 
it. And yet, that is what Americans travel on every day.
    We can't wait any longer, and yet your industry was the 
great American industry, that was responsible. We didn't even 
have roads until the Eisenhower highway traffic bill to get 
things anywhere except for your great industry. You are now in 
a position where you have to rebuild the railroads, because 
they are so old, and the tracks are so old.
    Let me just go quickly to this notion of hazardous 
substances. I want to use the District of Columbia and what 
happened there, because it is a case study. It makes me almost 
feel sorry for the industry. Because there was no action, no 
matter what we could do in committee, about the fact that 
hazardous substances went within four blocks of the Capitol. 
Without any prompting from me, I didn't have a thing to do with 
it, the D.C. City Council then passed essentially a ban, a re-
routing ban. I do not believe that re-routing is the answer in 
most jurisdictions. There didn't know what else to do, no 
leadership from the federal government.
    Now, look what you have. In your own testimony, Ms. Wilson 
points to more than a half-dozen cities that are trying to do 
the same thing. And guess what? Even though this is a matter of 
interstate commerce, our courts have not yet said that the 
District cannot do that because of a provision that says if the 
federal government doesn't act, then you can protect your own 
local jurisdiction. This is still going on 3 years later.
    I don't blame you, Ms. Wilson, for saying, well, you can't 
re-route. These tracks run a certain place. I disagree with you 
that we would increase exposure, because of course we were 
talking about re-routing in places like New York, where there 
are huge population centers, or close to the Capitol of the 
United States, for God's sake, and you have even been doing 
some of that close to the Capitol of the United States.
    So you know that there are some places not that are more 
important than others, but that you would be particularly 
vulnerable if in fact something occurred. If not re-routing, 
let me ask you, don't you believe it is time for the industry 
to sit down with the only power that can be a force here, the 
government of the United States, to in fact figure a system of 
either re-routing or alternatives that would uniformly be used 
when hazardous substances went through high-population centers?
    I am thinking of South Carolina. It doesn't have to a 
terrorist. Would you be willing, if everybody was sitting at 
the table, everybody under the same regime, so that nobody is 
at a competitive disadvantage, to in fact see as the answer a 
government-wide system that would apply to all, done in 
collaboration with the industry so we take into account its 
practices. So you don't end up banning something that there is 
no other real way to get there.
    But you would have uniformity. Would the industry be 
willing to submit itself to those, not that we need your 
permission, by the way, to that kind of regime in order to 
straighten out this hazardous substances re-routing matter, 
where we can't ask CSX, ``Hey, you do it,'' but the other 
company within whom you are competition, they don't have to do 
it. You have to do it because you happen to be in this set of 
tracks, and make yourself uncompetitive with them, but they 
don't have to do it.
    I would like to know whether you think that is a plausible 
answer to this problem of hazardous substance going through 
large population centers.
    Ms. Wilson. Thank you for that question, Congresswoman 
Norton. I can tell you, first of all, that we are always 
willing to sit down with government officials.
    Ms. Norton. You bet you are.
    Ms. Wilson. To try to resolve some of these very difficult 
issues, because one of the things that we learned very early on 
after 9/11, as we were trying to protect these shipments of TIH 
materials, is that if you are not very careful, you can, 
through your actions, produce some unintended consequences that 
can have a worse effect perhaps than the effect that you are 
trying to prevent.
    Ms. Norton. Well, you named insurance or liability, and yet 
you say that your hazard would be increased if it took more 
time. Well, nothing could increase your hazard more than 
somehow having some terrible accident in New York, Chicago or 
the District of Columbia. You don't know what your liability 
would be. Putting caps on your liability, you are a common 
carrier. It is pretty hard for you not to be subject to 
punitive damages no matter what you do.
    So is there any way to do it except making sure that 
everybody is under the same regime? That is my question.
    Ms. Wilson. What we have been doing recently is working 
with the Department of Homeland Security and the Department of 
Transportation to look at possible ways to streamline this 
transportation, with a goal of reducing the number of miles 
that these products need to be transported, with the goal also 
of evaluating the routes that we currently use to determine 
whether or not we are transporting these commodities over the 
safest, most secure routes. And we are working, actually the 
Railroad Research Foundation is working under a grant from the 
Department of Homeland Security to develop a tool that will 
help railroads evaluate both the safety and security risks of 
their hazardous materials routes, and alternate routes, to 
help?
    Ms. Norton. Ms. Wilson, I think you have answered my 
question. Your sitting with them at this late date, trying to 
in fact get some agreement. Frankly, I compliment the industry 
because I think the initiative has come from passenger and 
rail. And yet we heard testimony from the Inspector General. We 
can't ignore what the Amtrak testimony said. Essentially, it is 
that, and I am quoting you, sir, we suspect that many of these 
very good assessments that some may have done, others may not 
be as good, are carrier-specific, and not necessarily linked to 
larger system and modal vulnerabilities--in other words, no 
nationwide rail transportation system, the way we now have 
developed in plans.
    This is very, very bothersome to this committee, which is 
why you see the priority we are giving to it. I didn't mean to 
put you on the spot, Ms. Wilson, because I think unless the 
Department of Homeland Security says all of you all are under 
some regime, I don't expect CSX to say, ``Okay, we will re-
route,'' even around the nation's capitol, even though I know 
you have been doing it because you know what would happen if 
you blew up four blocks from the Capitol.
    Just let me ask one more question of Amtrak. Just let met 
get it on the record. We had to fight on the floor--was it last 
session or 2 years ago?--to get Amtrak enough money to stay up 
and running. Is Amtrak in any financial condition to provide 
the security of the kind we have been talking about here, in 
addition to keeping themselves up and running? Mr. Weiderhold?
    Mr. Weiderhold. I have been with Amtrak 30 years. I have 
been up and down that roller-coaster of teetering on 
bankruptcy, and then having a little bit of cash left at the 
end of the year. In a grant and legislative request that the 
company is submitting, as a matter of fact this week, as part 
of its annual package, it is making security its number one 
investment priority, which I think is a good thing.
    But it is doing it with its internal finances. It is 
redirecting money from other company activities, probably 
appropriately, I think, mostly appropriately. Is it enough? Not 
yet. More needs to be done. In 3 years, Amtrak has received 
about $21 million or $22 million from DHS for all things rail 
security. So most of what Amtrak does has to come out of its 
own hide.
    It is making progress. I am the IG. I am responsible for 
oversight. I can tell you it is not enough, and it is not fast 
enough. So more needs to be done.
    Ms. Norton. Madam Chairman, I thank you for your 
graciousness, but I take that as a ``no.'' If he is saying just 
to keep the railroad running, they are having to borrow money 
from keeping the railroad running for security because they 
recognize their vulnerability. We can see that we have a 
railroad on its last legs, which cannot provide the security 
that you and the chairman are expecting.
    Thank you very much.
    Ms. Jackson Lee. I think your probing has highlighted the 
purpose of this hearing, which is the distinction between 
safety and security.
    As the young people leave this room, I will take the 
personal privilege of letting them know how much we appreciate 
them going in and out of our hearings, and hopefully they are 
getting a sense of the importance of the work. Thank you for 
being here.
    I am just about to yield to the distinguished gentlelady 
from New York. I do want to emphasize the heart of this 
hearing. The testimony suggests that we do have to do a 
regulatory scheme, if you will. I think you captured it, Mr. 
Weiderhold, and that is to make security number one. I don't 
sense it, even though there is a great interest.
    I believe that through the period of time of legislation 
and markup, we need to hear from more of the railroads 
collectively to be able to frame what is going to be a 
regulatory process for making security number one.
    I yield 5 minutes to the distinguished gentlelady from New 
York, Congresswoman Clarke.
    Ms. Clarke. Thank you very much, Madam Chair.
    And to the three of you, thank you so much for your 
testimony here today. It sort of puts everything in context and 
real-time as we look at how we secure our nation's 
transportation systems.
    What I found really just sort of alarming is the fact that 
the Department of Homeland Security has spent approximately $24 
billion on aviation security, compared to $549 million in 
transit security since 9/11. It begs the question, how are we 
going to really tame this tiger?
    I think ``tame this tiger'' because all of you are 
operating each and every day with the specter of, my goodness, 
this should not be the day that something goes wrong. I can 
understand what that pressure must be like.
    I would like to just sort of ask Mr. Schiliro, I have a 
little bias here, but I would like to get a sense from you. You 
talked about rail transit security needing to be at a minimum 
of $500 million to $600 million per year. Has your estimate for 
the required minimum annual funding for transit security been 
endorsed by any other transit agencies or professional agencies 
in the country?
    Mr. Schiliro. Congresswoman Clarke, just to put that into a 
little bit of perspective, this year's transit security grant 
for the New York metropolitan region was approximately $61 
million. That money will be divided among the MTA, New Jersey 
Transit, I think Amtrak shares in that among Grand Central and 
Penn Station. So I think in terms of trying to balance how we 
arrive at it, we do take into account the needs of our sister 
agencies in coming up with that figure.
    As far as what it would take to go back to the original 
assessments that were done after 9/11, now obviously those 
things change. I think that we would need to reevaluate it in 
terms of an annual assessment. But the $61 million that we are 
going to share this year, I can assure you will not cover 
anywhere near what we would need in order to keep pace with the 
kinds of projects that are still pending. The problem is that 
the assessments that were done in 2002 and 2003 identified 
vulnerabilities that we cannot get to. That is an issue.
    Ms. Clarke. Let me also just take a moment to commend each 
of you for doing what you could with what you have, just to 
secure us in the best way that we can. We all accept the fact 
that that is not where we need to be right now, but I want to 
thank you for the efforts that you have put in place.
    You provided some very useful figures, Mr. Schirilo, on how 
much money the MTA has spent from its own resources to 
strengthen security since 9/11. How much money would you 
estimate the MTA has spent on security training and exercises 
since 9/11?
    Mr. Schiliro. Congresswoman, I would have to get back to 
you with a precise figure, but I would say in the neighborhood, 
since 9/11, between the transit security grants and our own 
money, probably just for exercises and training, in the 
neighborhood of $20 million to $30 million, but I could provide 
some precise numbers on that for you.
    Ms. Clarke. We would appreciate that. Does the MTA fully 
participate in the New York Intelligence Fusion Center and the 
New York City JTTF? And do you feel that the MTA has been 
sufficiently briefed on the more exotic terrorist threats from 
radiological, biological and chemical terrorist threats?
    Mr. Schiliro. Congresswoman, we do have two detectives 
assigned to the New York Fusion Center, and also two detectives 
assigned to the FBI's Joint Terrorist Task Force. That is a 
great benefit to us in terms of the kind of tactical 
information that we need every day to protect the system.
    I think if there is a weakness in the process, it is 
probably doing a better job in terms of the development of 
strategic information as it pertains to transit safety and 
transit security. That is something we are working on improving 
now. But as far as the day-to-day dissemination of tactical 
information, I left the FBI in 2000 and I can assure it is a 
lot better today than it was when I left. I think everybody 
does a very honest job of it.
    Ms. Clarke. To Ms. Wilson and Mr. Weiderhold, do you 
participate in briefings around the threats that are occurring 
on a regular basis with DHS or any other regulatory bodies?
    Ms. Wilson. We do to a limited extent. We ask the 
intelligence analysts at DHS and others in the intelligence 
community to meet with us and our own analysts on a quarterly 
basis to review the intelligence and to determine what more we 
need to know. We also, as I mentioned in my testimony, have a 
railroad police officer who sits at the NJTTF. Railroad police 
work very closely at the local JTTF levels so that they are 
plugged-in there.
    We also have our 24/7 Operations Center at AAR that is a 
DOD-cleared facility and operates at secret. So we do have the 
capability to receive and store threat information if it 
becomes available. We have been working more recently with a 
relatively new group at DHS called HITRAC. We are in contact 
with them on a regular basis. They do provide regular threat 
assessments for the rail industry.
    Mr. Weiderhold. Likewise, Amtrak has staff assigned to both 
the Washington field office of JTTF, as well as the New York 
JTTF. My office has staff also assigned to the JTTF here at the 
Washington field office. We have ongoing contact with HITRAC 
and with AAR through their centers.
    As an IG, I like to test those things from time to time, so 
we will be coming back to the committee about what the results 
of those tests are, to make sure that we are getting 
intelligence information, the right kind of information, 
getting it quickly and on time. I am looking forward to those 
tests.
    Ms. Clarke. Thank you very much, Madam Chair. I look 
forward to working with you and our colleagues to really deal 
with this issue.
    I think the key in a lot of this is the funding. Certainly, 
we have heard that there seems to be some level of 
communication about the security issues, but it is kind of out 
of balance if you are not in a position to do the type of 
infrastructure-building and supports that are required.
    I want to thank you, Madam Chair, for the opportunity.
    Ms. Jackson Lee. I thank the gentlelady. We know that her 
city in particular has enormous needs, along with our other 
large systems, and certainly we are going to welcome her 
insight.
    Mr. Schiliro, you were trying to answer the last question. 
I would appreciate it if you would.
    Mr. Schiliro. Yes, Congresswoman. The MTA does share a very 
serious concern on under-river tunnels. We operate 14 transit 
under-river tunnels in the City of New York. Without getting 
into the details, our tunnels are constructed differently than 
the PATH tunnel, so that does represent a different 
vulnerability.
    We undertook in the middle of 2003 a program to harden 
where necessary those tunnels. We anticipate another year or 
two before that tunnel is completed as far as structural 
hardening. The second part of the three-part equation is the 
application of fire and life safety techniques to those 
tunnels. That is the ability to provide redundant lighting and 
signage in the event that an evacuation of a tunnel is needed.
    Also, we deploy electronic security devices in terms of 
intrusion detection and cameras at each of those tunnels. That 
was part of the integrated electronic system that we talked a 
little bit about before. But tunnels do represent a 
vulnerability, there is no doubt about it.
    I think the program that we currently have in place, 
considering the age of those tunnels, is appropriate and 
reasonable under the circumstances. In a private session, we 
can certainly discuss the vulnerabilities and the tests that 
were done in order to arrive at that. But I think we generally 
do share the port's concern with tunnels, but I think we have a 
fairly good program.
    Ms. Jackson Lee. Do you self-fund?
    Mr. Schiliro. For the most part. This last year, in 2006, 
part of our transit security grant was for under-river tunnels. 
We have not received it yet, but we feel confident that we are 
going to get some money to do that.
    Ms. Jackson Lee. Thank you very much for answering the 
question.
    Let me thank the witnesses for their testimony, and let me 
thank them, for their insight. I hope that we will continue 
this dialogue as we proceed in the legislative process. I thank 
the first witnesses, and I know that we will now listen to 
witnesses who are addressing the concerns of employees.
    Let me simply conclude on the first panel by saying it is 
certainly well known that railroads, rail systems are vast. 
Rail yards are vast. But pre-9/11, airplanes were vast. There 
were many airplanes. In fact, there might have been thousands. 
And you recognized that on 9/11 we grounded those airplanes. My 
message is that we do what we have to do.
    I would like to be able to do what we have to do before the 
possibility of a horrific and tragic act that is plaguing our 
railroads. So I think there is no doubt that we must act and we 
will look forward to working with you. My concluding point is, 
let me associate myself with the words of Mr. King, that I do 
believe that the funding source should be vested in the agency 
that deals with security, and hopefully that will be a process 
that we will have captured in our legislation.
    With that, I thank the witnesses for their testimony.
    I am prepared now to move forward to the second panel.
    Allow me to welcome the second panel of witnesses, and to 
thank you for participating in this hearing.
    I think, as you have noted, we are awaiting your testimony 
because we believe rail security is a combination of not only 
industry and the federal government and local authorities, but 
it keenly falls on the shoulders of employees who are there 
every single day with the traveling public, or either helping 
to transport hazardous materials or otherwise going back and 
forth across America or up and down the East Coast.
    So I welcome the second panel of witnesses.
    I note our first witness will be Mr. Gary Maslanka, 
international vice president and director for the Railroad 
Division of the Transport Workers Union, who has 33 years of 
railroad experience that began with the Penn Central Railroad 
in 1974.
    Our second witness is Mr. John Murphy, who is the director 
of the Teamster Rail Conference of the International 
Brotherhood of Teamsters. We thank you also for your knowledge 
and service in this industry.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
statement for 5 minutes, beginning with Mr. Maslanka from the 
Transit Workers Union.

   STATEMENT OF GARY MASLANKA, INTERNATIONAL VICE PRESIDENT, 
     DIRECTOR OF RAILROAD DIVISION, TRANSPORT WORKERS UNION

    Mr. Maslanka. Good afternoon, Madam Chairman Jackson Lee, 
Ranking Member Lungren, Chairman Thompson and members of the 
committee.
    My name is Gary Maslanka. I am director of the Transport 
Workers Union of America, Railroad Division. I would like to 
thank you for the invitation to appear before the committee to 
provide testimony on railroad security issues. On behalf of the 
over 120,000 members of the Transport Workers Union, I would 
also like to thank you very much for conducting this very 
critical hearing.
    The Transport Workers Union is comprised of, among other 
sectors, members who work on mass transit systems, including 
the MTA in New York, rail and airlines. Inasmuch, as hear a lot 
of feedback on security issues. So I would point out that TW 
members were some of the first to respond to the horrific 
attacks in 2001.
    We certainly understand the need to provide safe and secure 
transportation systems, and we recognize the vulnerabilities of 
the nation's transportation systems, as numerous reports over 
the past several years have highlighted, and as the discussions 
have highlighted again today.
    I would just like to point out one of those reports, which 
I believe is an excellent report, ``Detour Ahead.'' I think 
that encapsules the entire problem and refers to many other 
reports. It is an excellent piece of work and we thank the 
committee for that.
    One of our most important issues here is obviously employee 
training. All frontline workers require training preparation 
and response, and as has been said by labor for quite some time 
now, employee security training to this point has been woefully 
inadequate. I know we hear and we see different pieces of 
testimony through the hearings that take place about all the 
wonderful plans and all the wonderful training that is going 
on, but frankly we don't see it.
    It has got to be more than just a handout saying to 
employees that you are the eyes and the ears of the railroad. 
Along those lines, I just want to point to some testimony from 
last week from Michael Haley, Deputy Chief Counsel for the FRA. 
He referenced in his testimony leveraging some training that 
could be partnered, or in a cooperative effort with the 
National Labor College. I believe that training issue was also 
discussed a bit in the ``Detour Ahead'' report. I want to say 
that is encouraging. I mean, if that could happen, as has 
happened in the past with the hazmat training and other 
initiatives through the Center, that is what we view as real 
training.
    I am not going to elaborate on the proper funding needs. 
That has been discussed here a little bit earlier today. I 
would just point out that it is really unrealistic to expect, 
for example, Amtrak, which is fighting to survive with the 
under-funding it receives on a regular basis. It is unrealistic 
to believe that they have the appropriate money, and they 
require funding to get the training done.
    Quickly, I want to turn to something that was mentioned in 
our written testimony--that is, on-board service workers on 
Amtrak in comparison to airline flight attendants, with respect 
to safety and security. It is our view, much like flight 
attendants, on-board service workers on Amtrak are there, yes, 
for the comfort of the passenger, but that can never or should 
never overshadow their first and foremost priority, and that is 
the safety and security of the passengers.
    Again, I refer to Michael Haley's testimony from last week, 
wherein he references emergency preparedness regulations under 
the FRA, Federal Railroad Administration. I would just point 
out a few things there, quickly. One is that regulation does 
not provide for appropriate security training. And moreover, by 
the limitation of the definition of a ``crewmember,'' it 
doesn't even provide for the appropriate training of all the 
crewmembers on board a train. It is a missed opportunity and a 
step backwards. FRA recognizes the safety benefit of providing 
every on-board employee training, including contractors, but 
indeed, it concludes that safety would be enhanced by limiting 
the definition of ``crewmember.''
    I am watching the clock here, so I am going to make it 
quick. I would just point out that while we are talking about 
the woeful needs for training of employees, it is not just 
here. It is in the federal regulations. It has got to be 
addressed there. As we speak today, I think it was mentioned 
earlier, the current rulemaking going on with the Department of 
Homeland Security, there again there is a rulemaking to address 
security plans on railroads, both passenger and freight, but 
there is no mention and no requirements for security training.
    Thank you again. I will do my best to answer any questions 
you may have.
    [The statement of Mr. Maslanka follows:]

  Submitted Prepared Statement of Gary Maslanka Submitted by James C. 
                                 Little

    Chairwoman Jackson Lee, Ranking Member Lungren, and other members 
of the Subcommittee, on behalf of the more than 120,000 members of the 
Transport Workers Union of America (TWU), we thank you for this 
opportunity to testify today at this very important hearing and give 
TWU's perspective on rail and mass transit security.
    TWU's transportation Members are bus, subway, light and heavy rail 
operators, clerks and maintenance employees at transit, commuter and 
freight rail systems, school bus operators, rail onboard service 
workers, rail mechanics, and rail cleaners. Our Members are also 
employed in various capacities in the airline industry--including but 
not limited to flight attendants, aircraft maintenance technicians, and 
ramp service personnel. We understand the need to provide safe and 
secure transportation systems, because our Members were some of the 
first responders in New York after the dreadful attacks of September 
11, 2001.
    Other deadly terrorist attacks on major rail and transit systems 
around the globe, in places like Mumbai, India, the London Underground, 
Moscow and Madrid should have prompted our government to provide the 
necessary comprehensive strategy, oversight, guidance and funding to 
ensure protection of the nations railroads and transit systems. Even 
before these more recent threats, the bombings at the Paris Metro and 
the release of sarin gas in the Tokyo subway system pointed out 
vulnerabilities in public transportation. It is obvious that mass 
transportation systems are attractive targets for terrorists. 
Therefore, we applaud the efforts of Chairman Thompson, Chairwoman 
Jackson Lee and the members of this committee in moving forward 
legislative initiatives in a bipartisan manner to protect our nation's 
transportation system.
    The safety and security of our mass transit and rail system is of 
paramount importance to the leaders and members of TWU. In particular, 
we strongly believe that all frontline rail and transit employees 
should receive training to prepare them to prevent and respond to acts 
of terrorism. A comprehensive security training program for workers on 
the scene of a security threat is vital to securing and safeguarding 
our transit and rail networks. As with flight attendants and pilots in 
the airline industry, onboard service workers and conductors in rail as 
well as bus drivers, subway operators, conductors and toll booth 
personnel in transit are obviously the group of frontline workers that 
are best positioned to spot potential security breaches or other 
potential problems. Reports of threats, suspicious activities and 
potential problems are usually communicated to frontline workers by 
passengers. And, oftentimes frontline workers themselves discover the 
suspicious activity or threat. Thus, it is essential that these ``eyes 
on the scene'' receive full and proper training in how to handle these 
threats and activities with a specific protocol of action to follow.
    Rail and transit first responders deserve proper training because 
1) they are the first on the scene--arriving even before police, fire 
fighter, and emergency medical responders and what is done in the first 
few minutes is crucial to minimize the destruction and loss of life; 2) 
investing in worker security training is a sound investment; 3) a 
mandatory worker security training program enhances the layered 
approach in protecting the public from destructive terrorist acts by 
giving frontline employees adequate tools to protect themselves and 
passengers from harm and 4) it is the right thing to do.
    Funding for initiatives that strategically enable us to protect our 
nation and its workers is vital. We admire the committee's commitment 
to use meaningful technology to help in the course of planning, 
preparing and protecting our homeland. However, we were disappointed 
that the Administration failed to include in last year's FY 2007 DHS 
budget proposal a specific line item funding amount for transit 
security.
    In the aviation industry, $9 is spent on security for every 
passenger who flies. It is frightening to realize that we currently 
invest just one penny per rail and transit passenger on security.
    But airline security measures are not without their flaws and we 
hopefully can learn from them as we implement security programs in 
transit and rail. The security training for our nation's flight 
attendants has never been properly funded nor has the piecemeal 
solution been an adequate strategy for flight attendant frontline 
workers. Instead, the crew member self defense training (CMSDT) program 
was doomed from the beginning without mandatory participation coupled 
with problematic training locations and dates.
    Hopefully, we have learned from the poorly managed flight attendant 
program so that rail and transit frontline workers will be given the 
proper, structured, consistent, adequate and well distributed security 
training program that is needed to meet their needs. The comparison of 
the work groups of flight attendants and onboard service workers is 
instructive. While flight attendants see to the comfort of passengers 
this is never allowed to interfere with or supplant their 
responsibilities for safety and now security.
    Likewise, the passenger serving responsibilities of on-board rail 
workers can never be allowed to overshadow their responsibility for 
dealing with safety and security--tasks like communicating with 
passengers, train evacuation, etc. Both flight attendants and on-board 
rail workers undergo extensive first aid training. Both groups have as 
a priority the safety and security of passengers as both groups have 
rules, and federal regulations that govern both sets of workers 
receiving initial and recurrent emergency preparedness training 
(121.401 FAR and 49 CFR 239). Both groups work in an environment that 
is unique and involves numerous challenges that are either passenger or 
equipment related.
    Numerous gaps and inconsistencies exist in our transportation 
security system. Though the ``layered'' approach to protecting 
passengers is a good one it cannot work effectively without properly 
training workers how to respond to suspicious activities. It is not 
enough to ask workers, the eyes and ears of their workplace to be 
vigilant and alert of potential security threats. They must be taught 
how to recognize potential problems, what protocols to follow in 
reporting and responding to potential threats and how best to protect 
themselves and their passengers from harm. Freight railroad workers 
also need training to properly and efficiently handle the security 
threats that they confront on their job as well.
    Rafi Ron, former Director of Security at Tel-Aviv Bun-Gurion 
International Airport has testified before Congress that ``training 
provides the skills and confidence. . .to employees who are present at 
every point in the system. No one is in a better position to recognize 
irregularities on the ground than the people who regularly work 
there.'' We strongly echo these sentiments. Workers are the eyes and 
ears of potential breaches to security in their workplace. It is 
imperative that we arm them with the proper tool of security training 
to protect their passengers and themselves. As a result of attacks on 
public transportation systems in other parts of the world, the American 
Public Transportation Association (APTA) testified recently before the 
Senate Committee on Banking, Housing and Urban Affairs that these 
attacks ``highlight the need to strengthen security on public transit 
systems in the US and to do so without delay.''
    Officials from both FTA and TSA have publicly recognized the need 
for training. In fact, a list of 17 ``action Items for Transit 
Agencies,'' jointly-developed by TSA and FTA includes establishing and 
maintaining a security and emergency training program for all 
employees, Yet, little, if anything is being done to ensure that this 
training is provided. There is no ``real'' training being done on a 
comprehensive basis. Watching a short 10 or 15 min video does not 
prepare a worker for a real security incident. This method did not work 
in the airlines prior to 9/11 with the flight attendants and this 
method does not adequately prepare our frontline transit and rail 
workers.
    From information sharing of intelligence to developing safety 
guidelines and standards to sharing best practices and expertise in 
development of programs that will enhance transit and rail security, it 
is essential that the federal government ensure and use every means 
available to enhance and increase security. It is time for the federal 
government to step in and not only provide funding for the operating 
costs associated with training, but also to require all transit and 
rail systems to train each and every frontline employee. It is the role 
of the federal government to ensure that this happens. Leaving it 
exclusively to the will of the industry is not just insufficient but 
could lead to disastrous consequences.
    The security of our rail and transit systems is the joint 
responsibility of all stakeholders. It is critical that the rail and 
transit employees who are on the scene where these threats strike be 
fully included in the implementation of any rail and transit security 
program. It is equally critical that they, through their 
representatives in labor, be fully included in all phases of planning 
and developing such a program. On behalf of the Transport Workers Union 
of America I look forward to working with this Committee to achieve 
these ends.

    Ms. Jackson Lee. Thank you for your testimony.
    I now recognize Mr. Murphy with the Teamsters Rail 
Conference to summarize his statement for 5 minutes. Mr. 
Murphy?

 STATEMENT OF JOHN MURPHY, DIRECTOR, TEAMSTER RAIL CONFERENCE, 
             INTERNATIONAL BROTHERHOOD OF TEAMSTERS

    Mr. Murphy. Good afternoon, Madam Chairman Jackson Lee, 
Ranking Member Lungren, Congressman Thompson, and members of 
the subcommittee. I am John Murphy, director of the Teamsters 
Rail Conference. Thank you for inviting me to testify on 
railroad security.
    The Teamsters Rail Conference represents more than 70,000 
frontline rail workers. As the eyes and ears of the nation's 
rail transportation system, our rail members are dedicated to 
improving rail security and safety in America. Unfortunately, I 
must report that the state of security on our rail system today 
is dangerously inadequate. It is tragic because we have seen 
firsthand the damage rail accidents can cause, and are aware of 
the catastrophic destruction that can be wrought by terrorism 
or sabotage.
    I can summarize my testimony in the simplest and starkest 
terms possible. Railroad employees are highly skilled 
professionals whose safety and security concerns are largely 
ignored by the rail corporations. The rail carrier security 
systems are woefully inadequate. Employee security training is 
virtually nonexistent. In the hands of the wrong people, trains 
are potential weapons of mass destruction.
    Since 9/11, the federal government has spent billions on 
aviation security, while spending a pittance on the nation's 
rail systems, even though railroads run freight trains laden 
with hazardous chemical tank cars through densely populated 
areas every single day. A chlorine tank car, if targeted by an 
explosive device, could create a toxic cloud 40 miles long and 
10 miles wide. Such a toxic plume could kill or injure as many 
as 100,000 people in less than 1 hour. The FBI considers them 
potential weapons of mass destruction. Such an event on the 
railroad tracks just four blocks from this building would 
endanger everyone in Congress and the Supreme Court. We sitting 
here today would be among the dead.
    In 2005, an individual hijacked a locomotive with a bow and 
arrow. In 2007, two young boys took a locomotive on a 12-mile 
joyride. If teenagers and a man with a bow and arrow can do 
this, just think of what a terrorist can do with such a 
potential weapon of mass destruction.
    The federal government has left the awesome responsibility 
for rail security in the hands of the rail carriers. We feel 
the federal government's faith in the rail carriers to self-
regulate the security measures is misplaced. The rail carriers 
claim to have instituted a rail safety plan. However, our 
members have not been trained in the plan's specifics. As the 
true first responders to rail emergencies, if there is such a 
plan, shouldn't the rail carriers share it with their 
employees? According to our members, they have not.
    The only security training is usually nothing more than a 
printed brochure or a 10-minute videotape. About 80 percent of 
our members said that they have not received any additional 
security-related training since 9/11. Therefore, we welcome and 
strongly support legislation that would mandate quality, 
comprehensive security training for rail employees.
    This woeful state of rail security is documented in our 
report called ``High Alert,'' some of which you may have seen. 
This report reveals a shocking inattention to security by the 
nation's largest rail corporations. The report's conclusions 
are that the nation's rail system is vulnerable to terrorist 
attack and the rail corporations have not taken seriously the 
safety of their employees and the general public.
    We are not alone in these concerns. News organizations 
across the United States have produced investigative news 
stories on the shocking lack of security, some of which we have 
supplied to you in the form of this DVD. Please look at it. 
Those who say that rail security has improved should read last 
month's investigative news article in the Pittsburgh 
Tribune.\1\ The reporter on that story penetrated 48 plants and 
freight lines to reach catastrophic chemicals. The reporter 
asked, what if he was a terrorist and not a reporter? This is 
the same question the Teamsters have raised in our report. Even 
where the FRA has already noticed security defects at rail 
facilities years ago, the reporter found access was still 
easily obtained today.
---------------------------------------------------------------------------
    \1\See article Pittsburgh Tribune, Terror on Tracks, January 14, 
2007, Sunday.
---------------------------------------------------------------------------
    We respectfully request the new Congress to mandate a 
comprehensive vulnerability assessment of the rail carriers, 
and to pass legislation that will compel rail corporations to 
train their employees on proper safety and evacuation 
procedures, on the use of appropriate emergency escape 
apparatus, on the special handling of hazardous materials, and 
to clarify the responsibility of rail employees within the 
railroad security plans. Most importantly for our members, we 
strongly support the inclusion of whistleblower protection. 
Railroad workers should not and cannot be subjected to 
dismissal when they provide security threat information to the 
federal government.
    The Teamster Rail Conference looks forward to working with 
this committee and the Congress to address the issues of rail 
security nationwide. I thank you for this opportunity to be 
here today, and I will try to answer any questions that you may 
have.
    [The statement of Mr. Murphy follows:]

                   Prepared Statement of John Murphy

    Good Afternoon. Madame Chairwoman Jackson-Lee, Ranking Member 
Lungren and Members of the Subcommittee, my name is John Murphy, 
Director of the Teamster's Rail Conference. I would like to thank you 
for inviting me here today to testify on the issue of railroad 
security. On the behalf of the more than 70,000 Teamsters Rail 
Conference members, I thank you for holding this hearing on this 
important subject.
    The issue of railroad security is of vital concern to all railroad 
workers, including Teamster Rail Conference members represented by the 
Brotherhood of Locomotive Engineers and Trainmen (BLET) and the 
Brotherhood of Maintenance of Way Employes Division (BMWED). The 
Teamsters Rail Conference is dedicated to improving rail security and 
safety in America to adequately protect rail workers and the 
communities they serve. Each and every day, we are on the front lines 
of the nation's transportation system and see the woeful lack of 
security on our railroads. This lack of security is more than just 
troubling; it is tragic because we have seen the damage that can be 
done by accidents on the railroads and shudder to think of the damage 
that could be wrought by terrorism or sabotage.
    It is frightening to think that there were more than 250 terror 
attacks on railroads world wide from 1995 until June of 2005. Since 
June 2005, we have seen attacks perpetrated in London and Mumbai, 
India. In the past 11 years, there has been one successful attempt to 
attack a railroad in the U.S. and several more attempted attacks. The 
attack in Hyder, Arizona, on October 9, 1995, killed an Amtrak employee 
and injured 78 other people.
    The case was never solved. More recently, plans were uncovered to 
attack the New York subway system on three different occasions.
    The frequency and severity of the attacks on railroads worldwide 
and here at home demonstrate the urgency for change in the way our rail 
security system works. However, our current regulations are severely 
inadequate.
    As you know, the Department of Homeland Security and the 
Transportation Security Administration spends nine dollars per airline 
passenger on security, but only spends one penny per rail/mass transit 
passenger. This is a pittance when compared to the number of riders 
each day on our nation's rail and mass transit systems. Each weekday, 
11.3 million passengers in 35 metropolitan areas and 22 states use some 
form of rail or mass transit.
    These passengers ride on trains that cover over 10,000 miles of 
commuter and urban rail lines. The very nature of the rail system makes 
it vulnerable to attack. In addition to the more than 10,000 miles of 
commuter and urban rail lines, there are 300,000 miles of freight rail 
lines. These lines are open and easily accessible to the general 
public.
    In response to these concerns, the Teamsters Rail Conference has 
taken a number of concrete steps. For example, the BLET and BMWED have 
drafted model security legislation that has been introduced at the 
state level in every section of the country. This legislation would 
accomplish the following:
        <bullet> Require rail operators to conduct a risk assessment of 
        their facilities, cargo, and hazardous material storage 
        procedures, paying special attention to storage within a 
        fifteen mile radius of a school, hospital, nursing home, public 
        utility, or public safety facility;
        <bullet> Develop a comprehensive security plan, to be filed 
        with the state's Transportation Department;
        <bullet> Implement a Community Protection Plan covering 
        security, training, and emergency response; and
        <bullet> Provide for whistle-blower protection for all rail 
        workers and rail contractor employees.
    Also, at a May 2006 meeting of the Federal Railroad 
Administration's Railroad Safety Advisory Committee, two locomotive 
engineers from the Rail Conference made a presentation on currently 
available locking devices for a locomotive's automatic brake valve. 
These locks--which would prevent an unauthorized person from moving a 
locomotive--are already in use in some European countries and in other 
parts of the world. As recently as January 16, 2007 two boys escaped 
from a juvenile detention home in Nelsonville, Ohio, broke into a 
building that housed a locomotive, and took the locomotive on a 12-mile 
joy ride before being apprehended by police. If two juveniles can do 
this for fun, just think of what a terrorist could do with such a 
potential weapon of mass destruction. In October 2005, in Southern 
California, an individual hijacked a locomotive with a bow and arrow. 
In that case, the locomotive was stopped at a signal; the hijacker 
boarded the locomotive and forced the engineer and conductor to flee. 
Fortunately, the engineer disabled the locomotive by activating a 
remote fuel shut off switch. But what if the hijacker had killed or 
incapacitated the crewmembers? While stories of hijacking with a bow 
and arrow and joyriding juveniles may sound amusing, those stories 
starkly portray the continuing lack of safety and security on 
locomotives today that put their crew members and public at large in 
serious danger. We strongly urge the committee to mandate the use of 
such locking devices to prevent unauthorized movement of locomotives, 
and we advocate the ``hardening'' of locomotive cabs to prevent 
unauthorized intrusion into locomotives.
    Ultimately, the strongest response to potential security threats 
faced by the railroad and transit industries begins here in Washington. 
We believe that the disproportionate concentration of federal resources 
in the aviation industry has left rail and transit systems vulnerable. 
While we applaud ongoing efforts to focus on the vulnerabilities of 
freight and passenger rail systems, we are concerned that we are not 
doing enough, fast enough.
    One area of grave concern is that safety and security training for 
rail employees, and rail security measures in general, have been not 
been given the attention they deserve. We believe that the 
Transportation Security Administration's (TSA) recent proposals for 
rail transport of hazardous materials still falls short when it comes 
to the safety of rail employees and the public. Although the proposed 
rules bring some of the dangers of hazardous materials storage to 
light, they do not adequately address quality safety, security, and 
emergency response training for rail employees. We respectfully request 
the new Congress to pass legislation that will compel rail corporations 
to train their employees on proper safety and evacuation procedures; 
the use of appropriate emergency escape apparatus; the special handling 
of hazardous materials; and the roles and responsibilities of rail 
employees within the railroad's security plans, including an 
understanding of the plan's threat level index and notification to 
employees each time the threat level is changed.
    Locomotive engineers, trainmen and track maintenance workers are 
the true first responders to rail emergencies--the eyes and ears of the 
industry. They are the first on the scene, and often the last to leave. 
Yet, the rail corporations do not have quality safety and security 
training for employees in place. That failure places these first 
responders in harm's way, and by implication puts the communities 
served by the railroads in harm's way as well. A good example is the 
recent CSX derailment in Kentucky near the Cincinnati airport. In that 
case, none of the rail employees knew what was in the train or how to 
contain the hazard and the local first responders began by dousing the 
flames with water which did not extinguish the fire and permitted the 
hazardous materials to spread by putting them in solution with the 
water.
    Even since 9/11 and the attacks on rail and transit systems 
overseas, the security training given to rail employees has been 
minimal, usually comprised of nothing more than a printed brochure or 
10-minute videotape. Moreover, 80 percent of our members who 
participated in a rail security and safety survey said that they had 
not received any additional security related training since 9/11. 
Therefore, we would welcome and support legislation that would mandate 
quality comprehensive security training for rail employees.
    The lack of quality training is documented in the Teamsters Rail 
Conference report ``High Alert: Workers Warn of Security Gaps on 
Nation's Railroads. This report was based on survey responses gathered 
over the previous year from more than 4,000 Rail Conference members 
employed on freight and passenger railroads nationwide. The survey 
asked rail workers to report the safety and security measures in place 
on any one workday during the nearly year-long survey period. The 
report reveals a shocking inattention to security by the nation's 
largest rail corporations. Rail employees have little, if any, company-
sponsored training on the handling of hazardous materials. The practice 
of leaving rail engines and other machinery unlocked is far too common. 
The report's conclusions are that the nation's rail system is 
vulnerable to terrorist attack, and the rail corporations have not 
taken seriously the safety of their employees and the public. The 
findings of that report include the following:
        <bullet> 94% of respondents said that rail yard access was not 
        secure;
        <bullet> 83% of respondents said that they had not received 
        any, or additional, training related to terrorism prevention 
        and response during the 12 months prior to the survey;
        <bullet> 70% of respondents reported seeing trespassers in the 
        yard; and
        <bullet> Only minimal security training had been provided to 
        employees who have been warned that they could be the targets 
        of a terrorist attack.
    Madame Chairwoman, I would ask that this ``High Alert'' report be 
made part of the hearing record.
    A week after the release of ``High Alert'', the Government 
Accountability Office (GAO) released its own report on rail security, 
prompting Senator Olympia Snowe (R-ME) to declare, ``We are in a 
situation where our individual rail services across the country have no 
clear understanding of what the best means are for securing their rail 
systems.//
    Based upon these and other findings, comprehensive vulnerability 
assessments conducted by the appropriate federal agencies should be 
mandatory for all railroads. Such would aid in addressing key areas 
that many believe are not adequately being handled by the industry. 
Such vulnerability assessments should be used as a basis for 
implementing recommendations that include:
        <bullet> Improving the security of rail tunnels, bridges, 
        switching and car storage areas, other rail infrastructure and 
        facilities, information systems, and other areas identified as 
        posing significant risks to public safety and the movement of 
        interstate commerce, taking into account the impact that any 
        proposed security measure might have on the provision of rail 
        service;
        <bullet> Deploying equipment to detect explosives and hazardous 
        chemical, biological and radioactive substances, and any 
        appropriate countermeasures;
        <bullet> Training employees in terrorism prevention, passenger 
        evacuation and response activities;
        <bullet> Conducting public outreach campaigns on passenger 
        railroads;
        <bullet> Deploying surveillance equipment; and
        <bullet> Identifying the immediate and long-term costs of 
        measures that may be required to address those risks.
    Employee training is one of the Rail Conference's most sought after 
security provisions. Throughout the country, railroad workers have 
established that their employers provide little or no specific training 
for terrorism prevention or response. In the High Alert survey, 84% of 
respondents said that they had not received any additional training in 
terrorism response or prevention in the 12 months preceding the survey; 
and 99% said they did not receive training related to the monitoring of 
nuclear shipments. This lack of training should be of critical interest 
to citizens who live near rail yards and tracks. The workers who lack 
this training will often be the first ones to respond to incidents.
    The railroad industry has also not adequately trained and 
integrated its employees into the security plans currently required. 
Railroad employees remain largely in the dark regarding the carriers' 
security plans and, while we can appreciate that certain security 
information must remain confidential, we believe that employee hazmat 
and security training is critically lacking and must be expanded and 
improved. Rail employees must know and understand the basic framework 
of their employer's security plan, including their roles and 
limitations within the employers' overall security plans, how the 
plan's threat level matrix is structured, and how notification to 
employees will be transmitted each time the threat level is changed. 
Today, rail employees do not have this information. Rail employees are 
not trained to know and understand the carrier's threat level matrix, 
and they are not notified when the threat level is changed due to 
either general or specific threats.
    Railroads boast that their workers are the eyes and ears of the 
industry, but we frankly feel more like canaries in a mine whose only 
clue of pending disaster will be when disaster strikes. As workers on 
the front line, our members will be solely relied upon by passengers, 
the public, and emergency responders to assist in the first critical 
moments of any rail emergency. Therefore, comprehensive security and 
response training for rail employees is an absolute must, and I 
strongly encourage this committee to address this long-outstanding 
issue.
    In the absence of training by the railroads, the Teamsters Rail 
Conference unions have worked together with six other rail unions to 
develop, on their own, a five day intensive Hazardous Materials and 
Rail Security training course for members, with funding from a National 
Institute of Environmental Health Sciences training grant. This 
training is provided through the National Labor College/George Meany 
Center in Silver Spring, MD. Labor is doing its part, but we cannot do 
it alone. The carriers must step up to the plate, share the basic 
elements of their security plans with their employees, and provide 
comprehensive training to front line rail workers.
    The Rail Conference also believes that one of the keys to railroad 
security and the protection of hazardous shipments from malicious 
intent is to strengthen security in and around yards and facilities 
where such materials in rail cars are stationary and in ``storage 
incidental to movement.'' These stationary shipments are extremely 
vulnerable to malicious intent. Privacy fencing, restricted access by 
outside non-railroad entities, improved safety and security training 
for rail employees, and perimeter security and patrols are among the 
more feasible solutions to improving security in rail yards and other 
``temporary storage'' facilities. Shielding Toxic By Inhalation Hazard 
(TIH) shipments and other high-hazard materials on tracks within yards 
may also enhance rail security, i.e., placing these high-hazard cars on 
tracks not readily visible from areas of public access.
    These are not just frontline rail workers who are raising concerns 
regarding the shocking lack of security where rail cars carrying highly 
toxic chemicals are sitting unsecured on the nation's rail lines. There 
have been in-depth, multi-part rail safety investigative stories by 
local and national newspapers and broadcast news networks in over fifty 
cities across the United States. News media reports with headlines such 
as ``Terrorism on the Rails'', ``Terror Trains'', ``Rolling Dirty 
Bombs'', and ``Toxic Trains'' have appeared in Sacramento, Buffalo, St. 
Louis, Kansas City, Miami, PBS, Fox News, Atlanta, Cincinnati, Fresno, 
New York City, Dallas-Ft. Worth, Omaha, Houston, Memphis, Washington, 
D.C., Pittsburgh, Philadelphia and dozens of other cities. The 
Teamsters Rail Conference has compiled a ten-minute video of news clips 
of investigative reports from television stations across the country 
that demonstrates how serious and widespread lax security measures are 
in the rail industry. We have distributed a copy of this DVD to each 
member of the Subcommittee, and we encourage you to take a few minutes 
to watch it.
    I have also attached to my written testimony a copy of an 
investigative article by Carl Prine, a reporter for the Pittsburgh 
Tribune Review newspaper. For those that will say that our ``High 
Alert'' report is dated, and that rail security has significantly 
improved over the past few years, I recommend you read this 
documentation of numerous breaches in security at plants and rail lines 
across the United States. It paints a picture of an individual 
unchallenged as he climbed all over rail cars loaded with highly toxic 
or explosive materials. Even where the Federal Railroad Administration 
had noted defects in security in 2003 at some rail facilities, access 
was easily obtained four years later. I can't help but think that this 
reporter went unchallenged in plain view of workers, in part, because 
rail workers have not been given the security awareness training that 
would cause them to recognize and report suspicious activity and 
security breaches to the proper authorities.
    We support allowing Transportation Security Administration (TSA) 
and Department of Homeland Security (DHS) officials working with TSA to 
enter rail yards and other facilities where rail cars are stored or 
awaiting transportation to conduct security inspections and copy 
records pertinent to rail security. We also support electronic tracking 
of hazardous materials cars and chain of custody requirements for 
certain hazardous materials.
    Wherever possible, high-hazard shipments should also be prohibited 
from being placed in stationary ``incidental to movement'' storage in 
high-population areas. This only makes sense given that the stated goal 
of terror organizations is to cause mass casualties. Limiting 
stationary ``incidental to movement'' storage in high-population areas 
would greatly reduce the incentive to attack such shipments simply 
because the impact of such an attack occurring in a remotely populated 
area would not achieve the terrorist's stated goal of causing mass 
casualties.
    The Teamster Rail Conference strongly supports the inclusion of 
``whistleblower'' protection in any rail security legislation. Railroad 
workers should not--and cannot--be subjected to dismissal when they 
provide security threat information to the government.
    The Teamster Rail Conference looks forward to working with this 
committee and the Congress to address the issues of rail security 
nationwide. I thank you for the opportunity to testify before you 
today, and I will try to answer any questions you may have.

Attachment

                      Pittsburgh Tribune Review *

                        January 14, 2007 Sunday

TERROR ON THE TRACKS

By Carl Prine
    Let's say the Pittsburgh Tribune-Review reporter really was a 
terrorist.
    What if those were bombs he was placing on the chemical placard of 
a rail car inside the Thatcher Chemical Co. plant in suburban Las 
Vegas, and not his business cards?
    Instead of a camera recording lax security over some of the 
deadliest chemicals ever produced, he held a detonator? And the string 
of chlorine gas cars trundling down Union Pacific Railroad tracks in 
the heart of Vegas was his prey?
    If he was a terrorist, and his goal was to release a potentially 
catastrophic cloud of deadly gases, explosives and caustic acids--in 
unguarded cars, left abandoned--then a U.S. Department of Homeland 
Security's planning scenario might apply: 17,500 people dead, another 
10,000 suffering injuries and 100,000 more flooding trauma wards, 
convinced they've been poisoned. The environmental damage would take 
weeks to clean up, forcing the evacuation of as many as 70,000 
residents from a city built on sin, military might and heavy industry.
    Less detailed and unlikely ``Worst Case Scenario'' plans filed with 
the U.S. Environmental Protection Agency suggest the gases that could 
be released by the reporter perched atop millions of pounds of zinc 
chloride, phosphoric and sulfuric acids, and chlorine gas could drift 
18 miles and threaten 1.1 million people with death, displacement or 
injury.
    But, luckily, he was only a reporter.
    Five years after terrorists murdered 2,996 people in the Sept. 11 
attacks, the Trib embarked on a probe to see how well railroads and 
their customers secure lethal hazardous materials--termed ``hazmat'' by 
first responders. The road map: Reports compiled since 2003 by the 
Federal Railroad Administration detailing defects in the way railroads 
and chemical plants conducted counter-terrorism security planning and 
worker training.
    Armed with that data, the Trib penetrated 48 plants and the freight 
lines that service them to reach potentially catastrophic chemicals in 
populated parts of Seattle, Tacoma, Atlanta, Pittsburgh, Las Vegas, San 
Francisco's Bay Area and the New Jersey suburbs, as well as two port 
facilities in Oregon and Washington.
    ``What you uncovered is a criminal tragedy, and it's a criminal 
tragedy that's just waiting to happen. It's also criminal what we 
haven't done about this,'' said U.S. Sen. Joseph Biden, D-Delaware, who 
has sponsored legislation designed to revamp rail hazmat security 
nationwide and pledges to hold hearings on the issue.
    Biden has taken at least 7,000 round trips by rail from his home in 
Wilmington to Washington, D.C., since entering the Senate in 1972. He 
routinely talks to railworkers, and when he pulls into a depot, he 
scans for hazmat tankers, guards and gates.
    He loves railroads so much that he wants to protect them by 
slashing tax cuts and take the extra cash to fund every recommendation 
of the 9/11 Commission that investigated the 2001 attacks. He demands 
more federal cops in the rail yards, more cameras and gates, less 
dangerous chemicals on the tracks and rerouting of particularly lethal 
shipments around big cities.
    ``All you have to do is look,'' Biden said. ``I can walk into a 
freight yard right now, and I can put plastique explosive on a railcar 
and detonate it. This is a distant concern to many people in 
Washington, D.C., but I see and I hear about it every day and we have 
to do something about it.''
    The Association of American Railroads, with a membership hauling 
almost 90 percent of the nation's hazmat tank cars, said freight 
security has improved since 2001 but conceded more has to be done to 
protect 240,000 miles of mostly unguarded line.
    ``You've got to remember the open architecture of railroads,'' said 
Nancy Wilson, AAR vice president and director of security. ``We're not 
static facilities. We cannot protect every railcar, every rail yard or 
every customer's facility all the time.''
    In the years since the Sept. 11 attacks, intelligence tips have 
warned about U.S. chemical plant targets and terrorists have hit 
freight trains abroad. Still, Homeland Security and the AAR insist 
there's no indication that terrorists are plotting hazmat rail attacks 
in the U.S. now.
    Good thing, because the Trib found:
    Little visible differences in security between the largest and 
smallest train lines. The Trib easily reached hazmat shipments or 
locomotives controlled by 12 railroads, ranging from giant
    Union Pacific to the tiny, city-owned Tacoma Municipal Beltline. 
Workers never challenged the reporter as he climbed trains, 
photographed derailing levers or peeked into signaling boxes 
controlling rail traffic.
    No police presence. Despite long trips down tracks nationwide, no 
rail cops detained the reporter. At a Clifton, N.J., station where 
explosive railcars hug teeming commuter lines, a Transit Police cruiser 
idled unconcerned while the reporter spent an hour around hazmat cars. 
According to the railroads, fewer than 2,300 cops patrol the tracks, 
about one for every 100 miles.
    Shoddy security even at 11 refineries, railroads and chemical 
plants bound by ``stringent'' voluntary guidelines created by the AAR 
and other industries. The Trib penetrated security at four railways 
adhering to AAR's guidelines. Seven plants that had voluntarily 
upgraded security to meet standards of their trade groups also had 
tracks open to terrorists.
    No executive at a large railroad would talk to the Trib about the 
newspaper's findings. Local and state security officials in California, 
Washington and Georgia also were silent when the Trib tried to discuss 
hazmat security.
    The Nevada Homeland Security Commission, however, is investigating 
shortfalls uncovered by the Trib's Vegas vacation.
    ``Closing gates, making sure workers and guards and police are 
aware of our chemicals, that's important,'' said Commission Supervisor 
Larry Casey. ``Unfortunately, the farther we get from 9/11, the more 
people forget about staying vigilant.
    ``Then there's the funding issue. The federal pot gets smaller and 
smaller. The farther we get from the major event in our lives, the 
threat goes up while the money to stop it goes down.''
    Chlorine gas unguarded in the suburbs of Las Vegas. The Trib 
reached 11 tankers filled with deadly gases and acids inside plants or 
along tracks in one of America's largest cities.
    In 2001, five of the 19 al-Qaida terrorists visited Las Vegas 
before hijacking airliners for suicide missions to Manhattan and 
Washington, D.C.
    Las Vegas annually hosts more than 37 million visitors. The city 
received about $28 million in federal counter-terrorism funding last 
year, but officials have been told that's being scaled back, leaving 
almost nothing for safeguarding the tracks latticing the city.
    According to Homeland Security's Inspector General, 90 percent of 
taxpayer anti-terrorism funding has gone to protecting aviation. In 
2006, $4.6 billion flowed to securing U.S. airports, leaving $32 
million for safeguarding surface transportation, including railroads.

The Burning of Atlanta
    Following FRA's deficiency reports to 12 facilities near Atlanta, 
the Trib found numerous security snafus in one of Dixie's largest 
cities.
    Along CSX lines in Dekalb County, a Trib reporter climbed unguarded 
stores of deadly insecticides, flammable petroleum distillates and 
acetone, a chemical that can trigger a vapor cloud explosion if leaked.
    Since 2003, FRA has noted 53 defects with CSX counter-terrorism 
planning and training in five states, including Georgia.
    A year ago, FRA reported that Bulkmatic's plant in the Atlanta 
suburbs failed to properly address potential intruders. A fence 
``locked'' with almost 2 feet of slack meant a Trib reporter could 
stroll by employees there who made no effort to challenge him. Federal 
inspectors had previously written up Bulkmatic chemical operations 
there and in Buffalo and Chicago for security problems.
    After visiting Alchem's Atlanta's caustic soda operation in 2005, 
an inspector wrote, ``Is there a fence? Is facility manned 24 hours a 
day?''
    Woodbridge Corp.'s deadly toluene diisocyanate railcars in the 
bustling Atlanta suburbs stand open to sabotage. The Trib easily 
accessed highly toxic or explosive rail shipments in a dozen rail and 
chemical facilities in one of Dixie's largest cities.
    In September, the Trib found the answer was, ``No.''
    In Marietta, Ga., the Trib reached hundreds of thousands of pounds 
of acrylic acid, a highly explosive chemical with choking fumes, stowed 
on the tracks near several factories. Woodbridge Corp.'s toluene 
diisocyanate railcars in Lithonia also were unguarded. If ruptured, the 
chemical can cause severe burns or death as gases seek out moist human 
flesh.
    Bombs also easily could have been placed on propane, caustic soda 
and fuming sulfuric acid tankers and vats in nearby Carroll, Fulton and 
Gwinnett counties, causing massive explosions and corrosive gas 
releases.
    Atlanta and Georgia homeland security officials declined to comment 
on the Trib's findings. Neither would Alchem, Bulkmatic, Woodbridge and 
CSX.
    ``To me, this is a no-brainer for terrorists in Atlanta or anywhere 
else,'' said Sal DePasquale, a Georgia State University expert on 
counter-terrorism and retired security director for chemical titan 
Georgia Pacific. ``It's toxic material. It's unprotected. If you're a 
railroad or a chemical plant and you won't have someone ready to kill 
the adversary ready to attack your plant, then what can you do?
    ``What's happened here is simple. Railroads were constructed and 
industry grew up along them. Then people came to live near the 
industry. Railroads by their nature are open to access and now we have 
to figure out how to protect them. Do we reach the point where we say, 
'In the interest of public health and safety, we're going to close down 
your ability to ship toxic material?' What happens then? It's a tough 
question to answer.''

West Coast swing
    One of the deadliest cargos known to man with a Trib business card 
tucked into placard No. 1017--chlorine gas. A weapon of mass 
destruction in World War I, this chlorine in Tacoma is so corrosive it 
will eat through human teeth.
    For almost three weeks, a Trib reporter followed the rails from 
Seattle to San Francisco to Las Vegas. Of 23 railroads, chemical 
facilities and seaports hit with FRA security defects, the Trib 
penetrated 18 of them in Washington, Oregon, California and Nevada.
    Two years after FRA found security plan defects at Cascade Columbia 
Distribution's Seattle warehouse, a Trib reporter found himself 
underneath stacks of explosive hydrogen peroxide, toxic ferrous 
chloride, blinding fluorosilicic acid and deadly muriatic acid.
    With cameras, roving patrols and high fences, Pioneer America's 
Tacoma bleach plant seeks to bar terrorists from chlorine railcars. But 
a Trib reporter walked past rail switching levers and safety chocks to 
90 tons of deadly gas abandoned by the Tacoma Municipal Beltline 
Railroad outside the gates. In 2004, FRA reported the railway failed to 
create a security plan and the Trib certainly didn't find one that kept 
chlorine gas safe from intruders two years later.
    According to EPA ``Worst Case Scenario'' filings, a catastrophic 
chlorine tank rupture there could push gas to as many as 14 miles, 
threatening 900,000 people.
    ``We can't switch out the chlorine on our own,'' said Pioneer's 
plant manager, George Karscig. ``The railroad brings in the cars. There 
are some days when they come and they don't make the switch and that's 
what you found when you came here.''
    Karscig immediately ensured that his guards policed railroad tracks 
Pioneer doesn't own.
    Union Pacific's bustling yard bisects Martinez, Calif., and the 
sprawling Shell refinery that brews large quantities of Liquid 
Petroleum Gas there. The Trib found Shell's safeguarding of 10 million 
pounds of highly explosive isopentane to be rigorous. That's important, 
because vapors released by a terrorists could trigger a flash explosion 
across much of the seaside town, according to EPA files.
    LPG is so flammable, a detonation of one railcar can cause second-
degree burns more than a mile away.
    But Shell officials concede there is little they can do to babysit 
dozens of tankers holding what first responders call ``LPG'' outside 
refinery property. During the Trib's odyssey across a pipeline and 
through Shell's rail channel, the Trib encountered three workers on 
Union Pacific tracks. They didn't stop the reporter or ask what he was 
doing.
    Detonating one LPG railcar can cause second-degree burns more than 
a mile away. A terrorist who explodes 18 LPG tank cars would unleash as 
much energy as the atomic bomb that was dropped on Hiroshima in 1945, 
according to federal reports.
    In Benicia, San Jose, Salinas, Richmond and Fairfield, Calif., the 
Trib found that a terrorist easily could have placed bombs on more than 
100 other tank cars containing asphyxiating anhydrous ammonia, 
flammable petroleum distillates, highly explosive propane, and LPG, 
often on Union Pacific tracks.
    It wasn't the first encounter by either the Trib or FRA with lax 
Union Pacific security. In 2005, an inspector noted that anyone could 
enter the Brenntag Great Lakes warehouse in Milwaukee's suburbs because 
a Union Pacific employee ``does not lock gate after switching 
facility.'' FRA also detailed problems with the railroad's security 
plans, training and intrusion protections in Oakland, New Orleans and 
Seattle.
    After FRA visited the Seattle yard in 2005, an inspector reported 
``concern with the lack of railroad crews requesting his ID or 
credentials during inspections.'' A Trib visit a year later found three 
bums sleeping under a bridge and a flurry of locomotives moving 
freight, but no sign of rail police.
    Open gates, torn fencelines and unguarded rail lines allowed 
unfettered access to 18 facilities and railroads along the Pacific 
coast, including this plant along a Union Pacific spur in the suburbs 
of San Francisco.
    In Nevada, a Trib reporter would simply wait for a Pioneer factory 
to disgorge its deadly chlorine and caustic soda tankers to an 
unguarded rail spur owned by Union Pacific. Although the Trib decorated 
Union Pacific hazmat tankers with more than 100 business cards from 
Vegas to Seattle, the company won't discuss it.
    ``Our only statement is that we believe what you did is dangerous 
and we strongly encourage people to stay away from railroad tracks,'' 
said railroad spokesman Jim Barnes.

A Jersey state mind
    In the crowded New Jersey suburbs rimming New York City, the Trib 
found tougher chemical plant security than any other place. But track 
protection was no better than other states, and of 48 facilities and 
railroads found to have security defects by FRA, the Trib entered 12 of 
them in July.
    At the Black Prince Distillery in Clifton, N.J., explosive tankers 
share space with passenger trains on New Jersey Transit's bustling 
Mainline from Manhattan. A Trib reporter eased past video cameras and a 
patrolling police cruiser three times during trips in and out of the 
plant and along the tracks, even while commuter cars zipped by.
    That concerned Richard Canas, director of the New Jersey Office of 
Homeland Security and Preparedness.
    ``The storage of hazardous material on commuter rail lines is 
something to be considered and that scenario goes to my biggest fear--
mass transit,'' he said. ``In our state, you've got a high population 
density. You have rail out the kazoo that moves at a lightning pace. 
There are things we do, like ramping up vigilance, conducting searches, 
doing shows of force. But this is expensive and must be sustained for 
it to be effective.''
    A Trib reporter followed bums under a bridge and through the woods 
to a large depot run by Conrail to service refineries stretching from 
Sewaren to Perth Amboy along ``The Chemical Coast'' line. On tracks 
stacked almost a mile deep with highly explosive chemicals, the 
reporter climbed tankers and waved at nearby trucks.
    Riding the rails atop a highly explosive shipment through the 
``Chemical Corridor'' of New Jersey. The Trib penetrated security at a 
dozen Jersey facilities, often finding catastrophic amounts of gases or 
explosives unguarded in one of America's most populated areas.
    Adding another two chemical plants in Parlin and Carteret, a pair 
of propane warehouses, an Edison distiller and the railroads connecting 
Morristown, Whippany, Dayton, Tennent, Ringoes and Newark, a 
coordinated attack on Garden State hazmat reached by the Trib would 
have released enough deadly ethylene oxide, toxic methylamine, 
explosive LPG, lethal hydrogen chloride and flammable denatured alcohol 
to threaten 527,000 people, according to EPA documents filed by the 
companies themselves.
    Once informed of the Trib's breaches and delivered photos of 
unguarded chemicals, New Jersey's Homeland Security experts sped to 
sensitive sites to probe what went wrong. That wasn't unexpected. Like 
Michigan, Trenton has fully merged state police and emergency 
management agencies so that a threat potentially impacting the 
environment or public health draws rapid law enforcement scrutiny, too.
    The state is creating an intelligence hub linked to other high-
target regional cities and states to better track vulnerabilities. 
Although New Jersey law already requires stiffer security at chemical 
plants than what's found in other states, Caas said voluntary efforts 
at high-risk factories often work, too.
    Trib stakeouts at Dupont, Air Products, Shell and ExxonMobil plants 
found outstanding perimeter and rail yard protection--despite earlier 
FRA defects--forcing the reporter to seek softer targets along the 
rails, something terrorists might do, too.
    ``New Jersey has done a lot,'' said Canas. ``But we're still 
extremely vulnerable in some areas. You exposed some of that--there's 
no denying that--but I think overall there's a spirit of cooperation 
here that you won't find in other states.''
    Why?
    ``They still feel 9/11,'' said Canas. ``They feel it every day. 
They haven't forgotten.''

    Ms. Jackson Lee. I thank the witnesses for their testimony. 
I look forward to continuing this dialogue. I also will look 
forward to the utilization of your testimony, which I think is 
enormously important.
    I will begin the questioning. I will ask both Mr. Maslanka 
and Mr. Murphy, and I will refer to your report, Mr. Murphy, 
and just read some language. Your report states that workers 
report working alone, long hours, without rest, unpredictable 
work schedules, unsecured rail yards with unattended equipment 
and unsecured hazmat, very few if any rail police and workers 
being unsure, if not ignorant, of security procedures.
    We are holding this hearing because we respect the 
importance of the term ``safety,'' but we distinguish that term 
from the word ``security.'' So to both of you, would you 
represent or do you believe that your employees feel 
vulnerable? If they feel vulnerable, have you made continuous 
and intense representations to the industry that you would like 
not only safety training, but security training?
    I might venture to say that security training is somewhat 
distinctive. It means, of course, that you would be assured, I 
think, that there is sufficient communication with the industry 
on intelligence information that is relevant to the industry, 
and that it would be digested sufficiently for employees to be 
made aware of it; that there would be certain forms of 
technology used to detect matters dealing with security issues; 
that employees might be rested; that their hours might be 
regular so that they could be rested.
    There are a number of issues that I hope that you can 
distinguish for us between safety and security. Mr. Maslanka?
    Mr. Maslanka. I would venture to say that we have made them 
aware of our concerns with safety and security issues. Over the 
years, we have been involved in various types of programs. I 
will just provide you with one example. Some years ago in the 
mid-1990s, we talk a lot about safety here, of hazardous 
materials. Although that is a safety issue, it could easily 
become a security issue by somebody with the wrong intent.
    But as far as the training aspect of it, in the early 1990s 
on a railroad by the name of Conrail, through the efforts of 
the George Meany Center, we put together a cooperative 
partnership for hazardous material training, where the railroad 
participated, the labor organization participated, and we got 
the expertise from the National Labor College. It was an 
excellent program. It was a model program of how these things 
can be accomplished.
    Then, Conrail was eaten up by two big rail carries, CSX and 
Norfolk Southern. We made presentations for those carriers. We 
tried to get these programs in place, but that was not their 
choice. That is just one example.
    I think there are a lot of similarities in safety and 
security, but as far as the security end of it goes, we have 
not seen any legitimate straightforward training telling people 
what to look for, protocols and all those types of things. The 
best we see are pamphlets or documents. It kind of reminds me 
of the days when I would be in a shanty in a railroad yard and 
I would see a box. I was nosy enough to look in the box to find 
out there were 150 North American emergency response guidebooks 
in it, which are valuable tools for railroad workers. But they 
were laying in the box because they were never given to the 
employees, or did the employees ever receive any instruction. 
That all changed with the cooperative centers through the Meany 
Center.
    Ms. Jackson Lee. Your employees, then, feel vulnerable?
    Mr. Maslanka. Yes, they do.
    Ms. Jackson Lee. Mr. Murphy, you listed a number of items. 
Would you comment on whether your employees feel vulnerable, 
and whether or not we need federal intervention?
    Mr. Murphy. I listened today to the testimony of the first 
panel, particularly Ms. Wilson's testimony about the number of 
employees that have received security training in the past few 
months and all that. The week before last, I was at the House 
Transportation Committee that was conducting hearings on 
safety, and heard another representative from the industry 
claim amazing improvements in the training of employees.
    I talked with my brother union members afterwards, from the 
industry, and asked them. How could they make these claims in 
the light that most of our members, if not all, still report to 
us that they have not received any training related to 
security? So I find it bewildering, and I think that is the 
task of this committee. You have to balance what the claims of 
the industry are against what the workers are telling you.
    I can assure the committee that any rail worker, who would 
have to be given protection by this committee because one of 
the problems that we face today is that the railroad companies 
will take job action, disciplinary action against rail workers 
who report security violations. You have to take that into 
account, but they would tell you if they were so protected, 
that they feel as vulnerable as they did on September 12 today.
    Security and safety issues are necessarily intertwined. The 
distinction, I think, is that the carriers, like any other 
employer in this country, when they train workers about safety 
it is either personal safety or protection of property--usually 
the employer's property. But it is when the accidents happen 
that we can see why the safety issues are so well connected to 
the security issues.
    Just recently, the derailment in Kentucky, you may have 
read about that. The employees of that train did not know what 
hazardous chemical was on the cars that ruptured. So when the 
firefighters arrived, they could not tell them what was 
leaking. The firefighters, now know what to do, poured water on 
the chemical, which only spread it further. So that is where 
the safety and security issue joins. Railroad workers have to 
be educated to the point where they are alert for what in 
normal circumstances would be an ordinary situation that might 
turn into a security risk.
    I can tell you one anecdotal story of a locomotive engineer 
this past summer. He was at a rail yard in Michigan. A 
gentleman hopped on the cab and flashed a security I.D. at him, 
and said he was from some particular agency. This engineer, who 
had received no training, just accepted the presence of that 
person in the cab. It was only later that he realized, ``I 
should have questioned that employee,'' or ``How come no one 
told me that this federal agency security force would be around 
today?'' He realized that he willy-nilly allowed that person to 
get on the cab, because he flashed some kind of an official 
credential at him.
    That is the real state of security training in our rail 
system today. The carriers can give you all the impressive 
numbers, but Madam Chairman, I can assure you that none of that 
training has reached our members yet. Remember, harking back to 
September 10, 2001, the New York City first responders had been 
trained to prepare for another bombing of the World Trade 
Centers. No one could imagine that aircraft would be used as 
flying missiles.
    What the Teamsters and the rest of organized labor have 
been saying for years now is, we need to be better prepared. 
And the carriers have to accept the responsibility to assume 
that kind of training for our workforce.
    Ms. Jackson Lee. Thank you. I assume you are saying we need 
federal intervention.
    Mr. Murphy. Yes.
    Ms. Jackson Lee. Thank you.
    Mr. Lungren, I yield 5 minutes to the ranking member of the 
subcommittee.
    Mr. Lungren. Thank you very much.
    And thank you both for your testimony.
    I am concerned. I hear two diametrically opposed versions 
of the state of affairs here. I find from the railroads, and I 
believe this is certainly credible, that they did embark on a 
program to reassess where they were from a security standpoint 
after 9/11, and that they had tried to use best practices and 
actually consulted the national intelligence community.
    I have looked at some of the material they have out, and I 
have had testimony as to what they do. But then I hear from the 
two of you that somehow it is not getting from here to there. 
How do we find out? How do we determine what the state is here? 
I would think it would be in the common interest of both 
management and labor to protect the products that they are 
moving. I would suspect that partnership is better than 
adversarial relationship in this. I am no expert on the 
relationship of employees to management in a railroad, but I 
have done some reading, and I understand you have had ups and 
downs and things.
    But let me just ask both of you, what is the level of 
training that you believe to be necessary? For instance, should 
railroad workers be trained to intercept a suspicious 
individual? Should railroad workers be trained to dispose of or 
in some way handle suspicious packages? Should railroad workers 
be trained in non-lethal methods of incapacitating suspects? 
Should railroad workers be trained rather to observe and 
inform, as opposed to those other things?
    I mean, what is the level that you are talking about, both 
of you, that would be necessary to give the level of protection 
for your employees, and as importantly, to the public at large 
from what could take place as a result of some terrorist 
attempting to intercept a train, or in some way attack the most 
hazardous material that might be there?
    Mr. Maslanka. I would say, very briefly, I don't think we 
are asking for stun guns. We don't want to get involved to that 
extent where we are working for some kind of training to take 
on something. But what we really need is to see a security 
plan, a real security plan, and understand what the provisions 
of that security plan are. I am speaking of the employees.
    To understand how to recognize problems, how to recognize 
packages. You know, there are tell-tale things out there that 
would help people to understand what their responsibility is. 
And how to not only recognize, but respond, God forbid, 
something should happen.
    Along those lines, I think another thing that is being 
overlooked very widely is the expertise of the employees 
themselves, who know the lay of the land better than those in 
the ivory towers. I mean, the railroad workers out there are 
working every day. They know the lay of the land. They know 
where the most porous areas are and where there can be a 
problem, but nobody comes and asks them about these things. 
There ought to be a little bit of brainstorming going on with 
the employees who know the lay of the land. You could probably 
develop better security plans if you used those resources.
    Mr. Lungren. Mr. Murphy?
    Mr. Murphy. Well, you present the dilemma, that you have to 
solve sometime this session, because it is really a matter of 
resources. In our ``High Alert'' report, we talk about the 
inadequate number of railroad police. Taking that one step 
further, there is certainly a lack of security personnel 
throughout the entire railroad system in this country.
    So if you want to try to find the bright line between where 
the proactive intervention should start and end, you have to 
address the lack of security police personnel within the 
industry. If the industry, at least on the freight side, can be 
compelled to increase the level of security personnel, then 
those type of interventionist actions that you just outlined 
should be handled by them. But if that force does not increase, 
then necessarily you are going to ask for more responsibility 
from the people that go to work every single day.
    And then if you do that, then in fact you are talking about 
a much more complex and thorough training program. It is not an 
easy answer of where the responsibility should lie, but just 
let me tell you how demanding it is, or how necessary it is. In 
the testimony of Ms. Wilson earlier today, she talked about the 
levels of security that the industry has invoked.
    With me today is Rick Inclima, the director of safety for 
the Brotherhood of Maintenance of Way Employees, part of the 
Teamster Rail Conference. This was the first time he has seen 
those levels and their definitions, today.
    This is what is going on. Don't you think that it makes 
sense, as my brother said, that this should be a joint effort 
between the carriers and their employees? How to figure these 
things out? But here it is, 2007, and we just see the 
definition of their security levels for the first time. That in 
itself should tell you mountains about what we need to do here.
    Mr. Lungren. I hope at least he will pick up the phone, or 
someone will pick up the phone and call one another, and do 
that.
    Mr. Murphy. We may need you to mediate on that.
    Mr. Lungren. Thank you, Madam Chair.
    Ms. Jackson Lee. I thank the ranking member.
    Now, I would like to yield 5 minutes to the chairman of the 
full committee, Mr. Thompson of Mississippi.
    Mr. Thompson. Thank you, Madam Chairman.
    Let me say from the outset that I am concerned, too, 
because in some instances we have heard the complete opposite 
of testimony in this hearing today. As I said earlier, our goal 
is to try to create a rail system that is secure. But I also 
want, for the record, to make sure that the information we get 
is correct, because we take that and use it to craft 
legislation.
    I would also say, Madam Chairman, that for future hearings 
we might need a little more definition on some of these.
    Two points, is it your testimony that, and I will take both 
of you on this, that the present training received by your 
membership is viewed as inadequate, from a security standpoint?
    Mr. Maslanka. Woefully inadequate, yes.
    Mr. Murphy. The training that most or all of our members 
have received so far has either been a brochure or watching a 
video. That says volumes.
    Mr. Thompson. What you heard with the panel before you also 
was a system where we were being told, ``let us do it; we can 
do it without federal intervention, or what have you, and trust 
us.'' And so again, do you think that based on what you have 
heard in your membership over time as experienced, that we can 
in fact trust the industry to secure itself, without 
significant federal intervention?
    Mr. Maslanka. No, absolutely not. Self-governance does not 
work. We have seen it time and time again. That is why I talked 
about the bit I did with the 239 regulation, the emergency 
preparedness, that it needs to be mandatory. It just doesn't 
work. Then you get budget cuts and sometimes when budget cuts 
happen, the first thing to suffer is training. At other times, 
there are not training staff, so they turn the training over to 
maybe departmental heads just as another burden and another 
duty, and they are not qualified with the skill sets to provide 
training. No, they can't be trusted to self-govern.
    I guess one other additional point I would make, whether it 
be in legislation or regulation, if there were specific 
provisions for specific training regimens and plans and review 
of those plans, and proper enforcement, I think that is where 
we need to go, because it is not working. The highlight of this 
all came about in 2001. It is now 2007 and it hasn't happened. 
That, in itself, says unless it is mandated by legislation or 
regulation, it is not going to happen.
    Mr. Murphy. Let me just answer, Congressman, by saying that 
phrase, ``the past is prologue,'' would absolutely ring true in 
this case. Unfortunately, from labor's point of view in any 
industry, not just the rail industry, anytime that safety and 
security for workers and the general public has been left to 
their responsibility, it has proven to be inadequate and 
Congress has had to intervene by regulating it. I see this as 
no different.
    There is no accountability unless you impose enforceable 
standards upon the railroad companies.
    Mr. Thompson. Thank you very much.
    I yield back.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    I would like a second round for questions that I would like 
to pose to the gentlemen.
    There are stark differences between the testimony that we 
heard in the first panel and that of the second panel, but it 
does not mean that we will not ultimately find a common ground 
that should be reflected in our legislation. It doesn't mean 
either that we are going to ignore the starkness of your 
testimony.
    I think what frustrates me is the fact that we are now in 
2007, and representatives of workers on rail yards and rail 
systems are saying that they have no security training or 
training as it relates to safety, period. This hearing, of 
course, is about security. There is a fine line that has to be, 
I think, made uniquely distinctive.
    We had safety in the airports before 9/11. We would like to 
think we have security. We have the Transportation Security 
Administration with employees that are employed by the federal 
government. We have certain procedures that occur.
    I guess one of the challenges that, of course, I would 
expect a great outcry by not only the traveling public, but 
maybe even rail workers, is a kind of security system that the 
aviation system has. But the very fact that there are no 
scanning at all raises, of course, concerns. The question will 
be: What else do you put in place?
    I would like to know from both of you whether or not the 
Transportation Security Administration has begun to engage any 
of you, your leadership, your workers, as stakeholders in how 
they should best proceed, as of course they will be entrusted 
with the responsibility of security for railroads, commuter and 
other systems that this process would instill. Meaning, has TSA 
reached out to you as stakeholders to secure your thoughts 
about training and other security measures for the rail 
systems?
    Mr. Maslanka. I can't speak for other organizations, but as 
far as our organization, other than seeing TSA representatives 
at a few meetings that involved the Federal Railroad 
Administration, I would have to say no, at least from the 
railroad sector. I want to make it clear, I don't speak for the 
mass transit or the airline sector. I can submit that for the 
record after we have additional information.
    I just was looking at this earlier today. It is actually a 
letter from the TSA two stakeholders, whoever they may be, 
advising them of the current rulemaking. But no, we didn't 
receive that, nor have we received any other information or 
calls asking for our input. I think there is a gap there 
because many of us in rail labor participate in the Rail Safety 
Advisory Committee, which does negotiated rulemakings and 
handles all kinds of safety things. And FRA interacts with TSA, 
so I would say they know who we are. They know who the 
stakeholders are, but we haven't heard from them.
    Ms. Jackson Lee. Mr. Murphy, thank you.
    Mr. Murphy. I would concur with my brother's remarks. In 
fact, you should take note that we supplied or forwarded a copy 
of our ``High Alert'' report to TSA in early 2006 and never 
even received any kind of response back, not even a curious 
request for more details.
    Ms. Jackson Lee. You also made note that the industry has 
focused a lot on technology. We hear that often in my other 
committees dealing with homeland security as well, and 
technology has its place, but not enough emphasis on the real-
life training of employees.
    Mr. Maslanka, you made a very important point about 
noticing a box. You did make an interesting point that in the 
box, there were some manuals regarding safety. But it was your 
curiosity, or the employees' curiosity, that made you go look.
    The question would be: Wouldn't that be an aspect of 
training, people-to-people training, to know how to be 
intuitive about boxes and/or people? I think you made the point 
that you can't really stop, and I mentioned scanning, and that 
is a broader issue, but you can't really stop the masses that 
get on trains, either whether it is long distance or whether or 
not it is transit. The point is, can you train employees to 
feel comfortable with their knowledge and to feel comfortable 
with what they might have to see and detect as being rail 
employees?
    Let's start with Mr. Murphy first.
    Mr. Murphy. Obviously, the issue that this committee is 
charged with addressing is so very important. Trying to find 
ways in which we can make immediate recommendations, given the 
panoply of issues that we face, from our perspective, and I 
hope I am not ranging too far afield from your question, but we 
would think that training in the simplest or the most basic 
elementary levels of the railroad's security threat levels 
should be done immediately, as a start, and what they actually 
need.
    We would think that that kind of education, along with 
somehow getting employees to recognize what would be considered 
ordinary might not be, in unusual circumstances, and it is an 
essential part of the type of security training that we would 
seek. While you were asking me the question, I was thinking 
about one important point that we raised in our report which we 
released at the end of September, 2005, when we talked about 
the lack of training for evacuation plans for our members on 
the Northeast Corridor, and the train tunnels. I know that 
Metro-North was talking about their plans. I am talking about 
in Baltimore, and further up the coast.
    As of today, there has been no coordinated effort in 
training our members on evacuating passengers if an emergency 
resulted. I mean, it is just, where do you start? Where do you 
get the kind of commitment from the carriers so that looking at 
that box, which turned out to be important information, is 
something that I have to pay attention to.
    You were right, Madam Chairman, when you pointed out that 
before 9/11, there was security in the airline industry. It 
took a tragedy to find out that it was inadequate. That is what 
our fear is. We have been saying this to the carriers for more 
than 3 years now: It is not enough. It is your responsibility 
to make the commitment so we don't have to pick up the pieces 
after another event, and then come to that recognition that it 
is inadequate.
    Ms. Jackson Lee. Mr. Maslanka, you have also made note, 
would you wish to finish, to answer that question?
    Mr. Maslanka. Yes. I think the question was?
    Ms. Jackson Lee. Is it more emphasis on technology than the 
actual training of the employees?
    Mr. Maslanka. Yes, I believe that is correct. I would just 
say, to the extent that training is available, I mean, using 
the materials that are put together, and maybe making the 
materials better, but using them for more than just saying 
``here they are,'' or popping in a video and letting the video 
run for 10 minutes, and saying, ``you have signed the register 
so you have now complied with the regulations.'
    There has got to be real meaning behind it. You have to 
really impart the knowledge and the skills, and that is hot 
taking place thus far.
    Ms. Jackson Lee. Mr. Lungren of California, the ranking 
member, you have 5 minutes.
    Mr. Lungren. Thank you.
    On the state of training, when I was Attorney General of 
California, we had a very tough issue about safety programs for 
the use of guns. There were those who said, ``Man, you make 
these people go through all these hoops, you are going to 
restrict their Second Amendment rights.''
    And so we came up with a training program that was one of 
two things. Either you had to take a test--10 questions, 15 
questions, I forget what it was--that talked about the safety 
of the use of a gun; or you had to watch a video. The argument 
was that this was not too intrusive on one's rights, but gave 
them the information that would allow them to do this, and we 
allowed them to have that.
    So I don't necessarily judge whether a program is effective 
by whether it is direct or whether it is indirect or whether it 
is interactive or whether it is by printed material or whether 
it is by film. I mean, is it effective?
    So let me just ask both of you this: Can you tell me if 
your workers receive this type of training, and if so, 
approximately how many hours a year of training they have: 
emergency response, safety, and security, and in the area of 
security, suspicious behavior or individuals, suspicious 
package recognition, and general security training.
    Do you have figures on that that is more than anecdotal or 
would you have to submit that for the record?
    Mr. Maslanka. I think the safest way to do that would be to 
submit it for the record, because it varies on different 
carriers, and that exercise would also require the cooperation 
of the carriers to receive that information.
    Mr. Lungren. Well, I guess what I am saying, is you could 
survey your members or if you have done a survey of your 
members so we know. We would then have that set of data, and 
then if we talked to management, we could ask them what they 
see from their program, and see if they meld, and if they 
don't, if there is a discrepancy.
    Because I think you folks are trying to tell the truth 
here. I think the other panel was trying to tell the truth. 
Sometimes we look at the same thing and see something 
different. What I would like to know is something that is 
quantifiable.
    Mr. Murphy?
    Mr. Murphy. The committee should keep cognizant of the fact 
that by regulation the carriers are required to do some levels 
of safety training. And those reports are generated from their 
training.
    But to your question about security training, to be able to 
identify suspicious individuals, packages--other than the 
brochure and the 10-minute video, the Teamsters Rail Conference 
is not aware, and maybe the carriers will write-off 1 hour that 
10-minute video, and maybe 1 hour for reading the brochure, but 
other than that, we cannot quantify a number on training for 
adequate security, because there is none.
    Mr. Lungren. Would it be possible to have a survey of a 
certain random number of your members to see what their 
response is, so that we could find out what they think they are 
getting and how much time they are spending, so we could sort 
of start to see where we are on this thing. Do you know what I 
am saying?
    Mr. Murphy. Well, we did a survey in our report. Despite 
the accusations of the industry, our report was based upon the 
responses from rail members, their employees. They tried to 
dismiss it as some kind of collective bargaining tactic. And 
that report was published at the end of September, 2005, and 83 
percent of the employees who responded said they had not 
received any security training. But if you are asking, would 
the Teamsters be willing to do another survey of its membership 
to reflect what has transpired since the end of September, we 
would be more than willing to do that.
    Obviously, we would need some months to do it because you 
have to put the survey forms out, and remember, we have to, at 
least in terms of the BMWE, those reports cannot be filled out 
while they are at work because they will place themselves in 
jeopardy. So that was one of the problems we faced in 
collecting the data. It all had to be done after they finished 
their shifts on the reports, and we did it over a 30-day period 
with the BMWE.
    But we would be glad to try to do it, but I am comfortable 
in telling the Representative that the data that we published 
in 2005 will not have changed significantly one way or another.
    Mr. Lungren. That would be a disappointment if that is 
true, but I appreciate your position. It is just for our 
guidance, for public policy decisions, it would be helpful if 
we had quantifiable material or evidence to help us make our 
best judgment.
    I am not trying to take one side or the other. I am not 
trying to beat up on anybody. I am trying to improve the 
situation for you folks, for your employers, and for the folks 
that are riding the rails, or happen to be living by rails and 
rail yards. We are all in this together, as far as I can tell.
    Mr. Murphy. As I said, the Teamsters would be willing to do 
another survey of its members and submit that new data to the 
committee, if you are interested.
    Mr. Lungren. Okay. I think that would be very helpful.
    Ms. Jackson Lee. I thank the distinguished ranking member.
    We welcome that information and we welcome any expanded 
information that you may want to submit. We also will allow the 
members of the subcommittee that may have additional questions 
for the witnesses, we would ask that the members submit these 
in writing and that the witnesses would do so.
    Allow me to conclude simply with a concluding remark, and 
that is that there has to be a coming together of these two 
disparate positions. I sympathize with the ranking member's 
frustration. I think the difference, what I am hearing of this 
second panel is that for training to be received as training, 
it has to be concrete; it has to be somewhat extended; and the 
individuals that are being trained have to recognize that they 
are being trained.
    We are hoping that we can find that balance with federal 
intervention, as I have listened to both panels have indicated 
by both their testimony and the responses to questions, that 
federal intervention is a necessity. I think the training has 
to be ramped up. When you leave the training for security, and 
again I focus on security, you have to leave the training with 
the sense that you have been trained, or that there is 
something different about the way you will behave, something 
different about the information that you have, so that you can 
behave differently.
    With that in mind, I would look forward to, again, any 
submissions that the two witnesses would wish to submit, as 
well as the first panel, and I believe the inquiry made by Mr. 
Lungren is a timely inquiry, and I would ask that if you are 
able to survey your employees, both of you, in a timely 
fashion, or a sample of such, we would certainly welcome that.
    Again, hearing no further business, the chairwoman thanks 
both witnesses of the second panel and the witnesses of the 
first panel. And hearing no further business, the subcommittee 
stands adjourned.
    [Whereupon, at 5:16 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
